<html>
<title> - THE ``DOT KIDS'' INTERNET DOMAIN: PROTECTING CHILDREN ONLINE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
      THE ``DOT KIDS'' INTERNET DOMAIN: PROTECTING CHILDREN ONLINE

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2004

                               __________

                           Serial No. 108-84

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house






                 U.S. GOVERNMENT PRINTING OFFICE

93-310                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800: 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001





                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                 Ranking Member
  Vice Chairman                      ALBERT R. WYNN, Maryland
PAUL E. GILLMOR, Ohio                KAREN McCARTHY, Missouri
CHRISTOPHER COX, California          MICHAEL F. DOYLE, Pennsylvania
NATHAN DEAL, Georgia                 JIM DAVIS, Florida
ED WHITFIELD, Kentucky               CHARLES A. GONZALEZ, Texas
BARBARA CUBIN, Wyoming               RICK BOUCHER, Virginia
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
HEATHER WILSON, New Mexico           BART GORDON, Tennessee
CHARLES W. ``CHIP'' PICKERING,       PETER DEUTSCH, Florida
Mississippi                          BOBBY L. RUSH, Illinois
VITO FOSSELLA, New York              ANNA G. ESHOO, California
STEVE BUYER, Indiana                 BART STUPAK, Michigan
CHARLES F. BASS, New Hampshire       ELIOT L. ENGEL, New York
MARY BONO, California                JOHN D. DINGELL, Michigan,
GREG WALDEN, Oregon                    (Ex Officio)
LEE TERRY, Nebraska
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Gallagher, Michael D., Acting Assistant Secretary of Commerce 
      for Communications and Information Administration, U.S. 
      Department of Commerce.....................................     8
    Johanson, Cynthia, Senior Vice President, Interactive and 
      Education, PBS.............................................    18
    Schroeder, Teri, CEO and Program Director, i-SAFE America, 
      Inc........................................................    23
    Tindall, Richard, Vice President, Internet Registry Services, 
      Neustar, Inc...............................................    13

                                 (iii)




      THE ``DOT KIDS'' INTERNET DOMAIN: PROTECTING CHILDREN ONLINE

                              ----------                              


                         THURSDAY, MAY 6, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                     Subcommittee on Telecommunications    
                                          and the Internet,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:38 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Cox, Deal, 
Whitfield, Shimkus, Pickering, Buyer, Bass, Terry, Barton (ex 
officio), Markey, and McCarthy.
    Staff present: Kelly Cole, majority counsel; Will Nordwind, 
majority counsel and policy co-ordinator; Jill Latham, 
legislative clerk; Jon Tripp, deputy communications director; 
Gregg Rothschild, minority counsel and Peter Filon, minority 
counsel.
    Mr. Upton. Good morning.
    Today, we are taking a look at one of the more unique 
efforts of the Congress to protect kids while online. 
Specifically, we are examining the implementation of the Dot 
Kids Implementation and Efficiency Act of 2002, a bill that I 
was a proud original sponsor of along with the leaders of that 
effort, Mr. Shimkus and Mr. Markey.
    I consider the passage of that act and the enactment of 
that act truly one of the great bipartisan accomplishments of 
this subcommittee during my tenure as Chair. It was an honor to 
stand in the Roosevelt Room with Mr. Shimkus and Mr. Markey as 
President Bush signed that bill into law.
    At its heart, .kids is like the children's section of the 
library, a place where parents can send their kids and know 
that they will be protected from the inappropriate material 
which is otherwise abundant through the entire World Wide Web. 
.kids is also a place where kids can play and learn online 
without having to worry about online predators who lurk in the 
dark shadows of chat rooms.
    When we enacted Dot Kids, I viewed it as a noble 
experiment, which I had faith would grow and thrive over time 
with proper care and feeding. Today, we will learn about the 
care and feeding which has occurred to date and its growth.
    .kids was launched on September 4, 2003, and, today, there 
are over 1,700 names registered on .kids and 13 live sites 
available for use. Among the 13 live sites are PBS Kids, who is 
with us today, Disney ABC Kids, and the Smithsonian.
    These are some of the terrific sites which I have visited, 
and I want to truly commend them and the rest of the other 13 
pioneers for their commitment to the education, safety and 
well-being of our Nation's youth.
    Some said that it could not be done, but these 13, along 
with the outstanding dedication and thoughtful attention of 
NeuStar and the Department of Commerce, have, indeed, proved 
them wrong. But, for sure, there is much work which needs to be 
done by all of us.
    I hope today's hearing in and of itself will help spread 
the word even further and illuminate the challenges and work 
which lie ahead, and I would like to think that the now 
legendary words of the Apollo 13 astronauts apply here: 
``Failure is not an option.''
    I appreciate each of today's witnesses being with us today, 
and I look forward to their testimony.
    I yield for an opening statement to the Chairman of the 
full committee, Mr. Barton.
    Chairman Barton. Thank you, Chairman Upton, and thank you 
for holding this hearing today on the .kids Internet domain. I 
want to thank our witnesses for coming, too.
    The Internet is an amazing place, and it offers so much for 
children of all ages. Unfortunately, for as much good and 
wholesome content that exists on the Internet for children to 
learn and grow, there is at least as much content that children 
should be shielded from viewing. Between pornography, graphic 
violence, explicit chat rooms, the Internet can be a perilous 
and dangerous place.
    Because of these hazards, the Congress has established the 
.kids.us Internet domain. Finally, parents and educators have a 
dedicated place for children on the Internet, much like the 
children's section of the library. This is a space that adults 
can send their children to and feel confident that they will be 
safe from the evils of the Internet.
    The kids.us Internet domain concept is a landmark one. 
Never before has something like this been tried in the .us 
space. It is an excellent idea, a sound concept. Right now, 
kids.us offers a fun, interesting, educational content for 
which NTIA and NeuStar should be applauded.
    The kids.us domain is currently a host for the Public 
Broadcasting Service--here today is a witness--ABC, the 
Smithsonian, the St. Nicholas Center among many, many others. 
We need to continue to leverage the strength of these sites to 
encourage other companies, nonprofits, schools and foundations 
to post content that can benefit America's children.
    I especially want to thank Representative Shimkus, 
Representative Markey, and Chairman Upton for their hard work 
getting this law passed. If it had not been for their effort, 
we would not have this. That is a fact because I can remember, 
when they were working on this several years ago, how intensely 
personal it was to them in the most positive way and how they 
made it a priority.
    We should also thank Mr. Dingell and former Chairman Tauzin 
for their strong support as this legislation came through this 
committee. Their tireless work to provide children with a safe 
Internet playground will be appreciated for years and years to 
come.
    I especially want to thank them for doing this because I 
have two grandchildren and a third grandchild on the way, and, 
you know, I feel very confident that this is going to provide 
wholesome educational and entertainment content for them.
    So, Mr. Upton and Mr. Markey, Mr. Shimkus, again, a very 
personal thank you for what you have done.
    Mr. Upton. At this point, I would like to recognize the 
Ranking Member of the subcommittee and a very active supporter 
and leader in this effort, Mr. Markey, for an opening 
statement.
    Mr. Markey. Thank you.
    I want to commend you, Mr. Chairman, for holding today's 
hearing on the implementation of the Dot Kids Law.
    Our colleague, John Shimkus, came up with this idea and 
asked me to be his cosponsor on it, and this is something that 
we are both very, very proud of. We obviously worked with you 
and many other House colleagues. President Bush signed it into 
law in December of 2002.
    This hearing will give us an opportunity to assess the 
progress made in implementing the Dot Kids Law and give us an 
opportunity to see where we might improve the usefulness of the 
domain.
    As many parents know today, the Internet often appears to 
be a veritable jungle of Web sites. When a child logs on to 
search for games, stories or educational material, search 
engines often turn up pages for the kids laden with content 
that is simply not appropriate for young children.
    To give children their own playground on the Internet and 
to facilitate the easier browsing and filtering of content that 
many parents desire, the Dot Kids Implementation and Efficiency 
Act was enacted to establish a child-friendly Internet domain 
in the .us country code domain.
    The .kids.us was not designed to censor Internet content 
per se. Rather, it was crafted to help organize content more 
appropriate for kids in a safe and secure cyberzone where the 
risk of young children clicking outside of that zone to 
unsuitable content or being preyed upon or exploited online by 
adults posing as kids is vastly diminished.
    Organizing kid-friendly content in this manner will enhance 
the effectiveness of filtering software and may better enable 
parents to set their children's browsers so that their kids 
only surf within the .kids domain.
    Another feature of the .kids.us domain that I want to 
emphasize is that use of the .kids domain is not compulsory. 
Signing up for a .kids domain or sending kids to Web sites in 
that location remains completely voluntary and the free choice 
of both content, speakers and parents.
    Finally, I want to note that this bill is not meant in any 
way to diminish or thwart the many laudable private-sector 
efforts to create new and alternative ways for kids to have a 
safe and educational online experience.
    Our efforts in creating the .kids.us domain was meant to 
supplement, not supplant initiatives underway elsewhere by 
ensuring that our .us country code reflects our public interest 
goals as a society in a way that, hopefully, can harness the 
best of advanced technology for kids across the country.
    I thank you again, Chairman Upton, for holding this very 
important hearing.
    Mr. Upton. I recognize for an opening statement Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman.
    I am just as keen on this idea working as are our witnesses 
and every member of this panel.
    I have kids. They need the Internet to do their schoolwork. 
To the extent possible, because of the inappropriate material 
that is aimed at us as adults, not to mention what comes at 
you, whether you want it or not, when you are a child, we as 
parents encourage the use of textbooks and hardcopy reference 
materials--when I say we as parents, I mean me; I mean myself 
and my wife--such as encyclopedias. That is what we try to use 
first.
    But their class assignments routinely require use of the 
Internet, it is commonplace in elementary and grammar school 
and not just in our children's school, but, as a Congressman, 
since I go to a lot of schools, I know that this is true across 
the board, for kids to be directed to the Internet to do their 
schoolwork.
    As a result, even though our kids have their own computers, 
we as parents allow them access to the Internet only under our 
direct supervision. .kids in its conception could solve this 
problem, permitting kids to surf safely and independently.
    It is wonderful to imagine as a parent what it would be 
like if .kids really worked, if you could restrict children's 
access solely to this domain and if it could host the 
educational material and age-appropriate entertainment that is 
available on the greater Internet.
    Eighteen months after the passage of this law, however, 
there are still relatively few active Web sites in this domain, 
as our witnesses will testify today, and we have to find ways 
to draw attention to this opportunity for creators of content.
    Many organizations have registered names in the domain, and 
so, as one concerned parent, I encourage them to make their 
sites live as soon as possible, and I urge every museum and 
educational institution to look for opportunities to share more 
of their resources with America's kids in this way.
    On the entertainment side, I am also hopeful that a major 
sports league might take a leadership role in providing kid-
friendly material and helping to make this domain as appealing 
to kids as it is to parents. I know that a number of 
professional sports executives have expressed concern that 
their audiences are skewing older, and they worry that ticket 
prices have pushed the family crowd out of their arenas. Here 
is a great opportunity to win over a lot of the young fans who 
will someday become ticket buyers.
    Of course, my agenda is not to sell tickets to sporting 
events, but to make sure that this is an interesting and 
exciting place for kids.
    And, again, I would like to commend Mr. Shimkus and Mr. 
Markey and you, Mr. Chairman, for helping create this 
opportunity.
    Mr. Upton. Thank you.
    I would recognize the founder of this bill, a great 
gentleman, sadly a Cardinal fan, from Illinois, Mr. Shimkus.
    Mr. Shimkus. Are there any other professional teams in the 
Midwest, Mr. Chairman?
    Mr. Upton. I can mute you real quick on this.
    Mr. Shimkus. Thank you, Mr. Chairman. It is great to be 
here.
    Interestingly, I had a family visiting my church. I mean, 
it was a family that I had grown up with, and the daughter has 
since moved away, and her father passed away last year. I think 
they were back in the area with their mother around Eastertime.
    After church, she came running up to me and said, 
``.kids.us.'' She goes, ``What a great idea. What a great 
site.'' Somehow she had connected the work that we had done and 
realized I was involved with it. I am not even sure which State 
she lives in now, but her excitement gave me an added boost.
    You know, we are very pleased with those who have made the 
effort, and I fully understand that this is not an easy 
process. In fact, we were trying to get our side up here on the 
Hill. We have been working as long as you all have. We have to 
get a separate server, you know, and, Mr. Chairman, we still do 
not have a kids.us for our own site that we want to have so 
that kids can go to us.
    So this is a time we all realize that we have work to do. I 
thank those of you who have been involved in the process and 
have rolled out sites, we thank you.
    This hearing should help us help do the advertising, the 
promotion, which we have been given the authority to do, and, 
as those of you who follow this committee know, I continue to 
do that as much as possible. But it also helps us to look at 
some of the problems and maybe what we can do to help direct 
and do some fixes.
    This cybersquatting is really a frustrating thing for 
folks, and it is for me. In fact, I was talking with 
Congressman Cox beforehand, and it is something we need to look 
at, especially if there are proprietary names that are being, 
in essence, stolen for speculators that are, in essence, brand 
names, and I would encourage us to do that.
    I sit on this high-tech committee, and I am probably as 
techless as any parent. My 11-year-old is now further advanced 
in his computer skills than I am, and there is nothing I can do 
about it. He is just going to continue to advance.
    This is a great site for my 4-year-old. This is a great 
site for my 9-year-old. I think my 11-year-old is already past 
it, I mean, but, if we continue to grow, the really young kids 
will have a safe place to surf.
    This is a big hearing room. This is typical of what happens 
in legislation: good, positive legislation, not a large crowd. 
We go upstairs at 10 o'clock for our peer-to-peer hearing, and 
what are we going to have? You know, you are going to be 
fighting to get in there because of the smut and the terrible 
stuff that is going on.
    So this really ties into peer-to-peer. It ties into 
spyware. Because we were proactive on this site, hopefully, we 
will not have to have a consumer protection hearing on how to 
protect our kids on the Internet, if we are successful in fully 
deploying this site.
    I am here to say thanks. I am here to want to offer my 
services. I know in the back Jerry Kovack is there, and we have 
been fighting for a long time, and he has been with me from day 
one. I just want to pledge to continue to work hard. I do not 
want this site to fail because of lack of my effort.
    So I pledge that to you, and, with that, Mr. Chairman, I 
look forward to the hearing. I yield back my time.
    Mr. Upton. Mr. Terry?
    Mr. Terry. Thank you, Mr. Chairman, for holding this 
hearing, and, like my colleagues who have expressed their 
enthusiastic support for this, I, too, am an enthusiastic 
supporter of .kids.us.
    Frankly, with the Supreme Court rulings, this is the most 
creative way and most effective way that we can protect our 
children when they are online.
    As the father of three little guys who like to be on the 
computer and the Internet, and as a parent, we are encouraging 
their creativity with the computer.
    In fact, as a Christmas present for my 9-year-old, we gave 
him a digital camera and then taught him how to use the 
software that comes with it, in fact, we brought in a friend of 
mine that does that for a living to try and teach him.
    We practice downloading music the legal and right way, 
teaching him the lessons over the weekend, as a matter of fact.
    But to continue on the sports theme here, it is the issue 
of: If we build it, will they come? The issue is the content 
providers, if we do not have the content providers, the sites 
to go to. We need to reach that critical mass where we create 
the momentum where everybody wants to be on .kids.us, and then 
it is just the norm for younger kids to just go there, and our 
computers, as parents, are set for them to go there.
    How we get to that point is the subject of today's hearing, 
and we need to vet through those issues that are blocking those 
who want to come to this site. Also, how do we as a Congress, 
how do we as a society encourage all of those folks that could 
have and should have content on their sites on .kids.us? How do 
we get them there?
    So I appreciate the folks that have come here today to help 
us vet through this, our witnesses, and I will yield back the 
rest of my time because I want to hear as much before I do go 
to our peer-to-peer hearing.
    Mr. Upton. Thank you.
    Mr. Deal?
    Thank you.
    [Additional statements submitted for the record follow:]
    Prepared Statement of Hon. Paul E. Gillmor, a Representative in 
                    Congress from the State of Ohio
    I thank the Chairman for calling us here today to track the 
progress of the Dot Kids Domain Act of 2001, legislation approved by 
our panel and signed into law last Congress. It is certainly necessary 
in our capacity to continue to gauge the effectiveness of the measures 
we support that later become public law.
    The Internet now serves an ever-increasing younger number of 
American children as a tool of education, entertainment, 
communications, and even commerce. With this, of course comes the 
accessibility of smut that a child can encounter online whether they 
are seeking it or not, as many are bombarded with inappropriate 
material via email, chat-rooms, and often misleading website addresses.
    While the debut of .kids.us represents an important first step to 
providing positive and safe online experiences for our children, all of 
us need to take a closer look to ensure that this domain is in fact 
working as it should, that child-friendly organizations, companies, and 
educational entities are being engaged and encouraged to participate, 
and that awareness is being raised among parents and educators alike.
    We must help turn .kids.us into a ``dot com'' with losing its 
domain name and content. I welcome the well-balanced panel of witnesses 
and look forward to your testimony. Again, I thank the Chairman and 
yield back the remainder of my time.
                                 ______
                                 
 Prepared Statement of Hon. John Shimkus, a Representative in Congress 
                       from the State of Illinois
    I would like to start off by thanking Chairman Upton for holding 
this hearing. And also say thank you to Chairman Upton, Mr. Markey and 
the other members of the Committee who supported this legislation when 
it passed last Congress.
    Many people here today know of my passion for this subject. I am 
passionate not only because I was one of the original authors of the 
law, but also because I am a father of 3 young boys. Many here today 
have seen me mention ``Dot Kids'' at numerous hearings and grill 
witnesses on when they are going to put up websites. And I will 
continue to do that as we move forward.
    I am very pleased with the job that Nuestar and NTIA have done so 
far with ``Dot Kids'', and for their plans for this summer to continue 
marketing ``Dot Kids'' sites. I know Nuestar has invested significant 
amount of resources to make sure ``Dot Kids'' is a success. Their 
marketing campaign set for this June should generate more new sites. 
And to Mr. Gallagher, I am pleased to see Secretary Evans leadership on 
this issue and his call to companies to bring content to the ``Dot 
Kids'' space. I am also encouraged to hear about your planned forum to 
talk about the ``Dot Kids'' site this summer. Hopefully, the Senate 
will act soon on your nomination so you can work on ``Dots Kids'' in an 
``official'' capacity.
    To be honest, I am a little disappointed at the number of sites 
that are up and running. I had hoped there would be more by this time. 
We just need to get the word out a little more. As time moves on, we 
will see a greater variety of content, and that will help. I look 
forward to working with both Nuestar and NTIA closely on their outreach 
efforts.
    To date, over 1700 sites have been registered and 13 are up and 
running, including NOAA, PBS and ABCkids. A lot of the sites that are 
not up and running are companies and groups that are going through the 
process of getting the sites ready, some are companies that registered 
a site but are yet unsure on how they want to proceed and some are 
simply ``cyber-squatters'' who have registered sites in the hope of 
making some money.
    This legislation created a child-friendly domain on the .us country 
code--the official address for the United States on the Internet. This 
sub-domain host educational and entertaining content geared toward 
children 13 and under. Similar to a child's section of a library, ``Dot 
Kids'' is a positive and safe place, where children can ``surf'' 
without being contacted by online predators or bombarded with adult 
material.
    ``Dot Kids'' can be used alone, or in conjunction with other 
filtering programs by parents who want to guide their children to 
appropriate content on the Internet. I strongly believe that ``Dot 
Kids'' will not only keep our children safe online, it will also cause 
child-friendly content to flourish on the World Wide Web.
    As we all know, the World Wide Web holds a vast treasure of 
knowledge, but within this web is a great deal of material that is 
harmful, or simply not suitable for children to view. Study after study 
on children and the Internet are concluding that inappropriate material 
and targeting by predators are the new perils that all of our children 
face online.
    It is my hope that ``Dot Kids'' will continue to flourish, continue 
to be a place where children can learn and play online while feeling 
safe. Our work is not done by simply creating a ``Dot Kids'' site. We 
as parents need to continue to supervise our children when they are on 
the web. We as government officials need to make sure there are safe 
places for children to go online. And we, as concerned citizens, need 
to call on organizations and companies to join the fight against smut 
on the internet.
    Thank you Mr. Chairman and I yield back the balance of my time.
                                 ______
                                 
Prepared Statement of Hon. Karen McCarthy, a Representative in Congress 
                       from the State of Missouri
    Good morning. Thank you, Mr. Chairman, for holding this important 
hearing today to evaluate the progress we are making in promoting the 
use of the ``dot kids'' Internet domain by families and businesses. I 
would also like to thank the gentleman from Massachusetts, Mr. Markey, 
and the gentleman from Illinois, Mr. Shimkus for spearheading this 
critical endeavor. Finally, I want to thank our panel of distinguished 
witnesses for agreeing to be here to give their assessment of how we 
are doing.
    When the Congress passed the ``Dot Kids Implementation and 
Efficiency Act'' nearly two years ago, we had high hopes of enhancing 
online protections for our children by creating a ``safe playground'' 
on the Internet. My colleagues on this Subcommittee and I realized then 
that the Internet had the potential to be both the greatest information 
tool we could imagine for America's young minds and the greatest threat 
to their healthy development. Indeed, the explosion of the medium was 
accompanied by an explosion of undesirable, predatory content aimed at 
children and it became clear that we had to act decisively, and in a 
bipartisan fashion, to carve out a safe haven for them to utilize the 
Internet's obvious benefits to learning.
    Mr. Chairman, I am proud to say that the Congress did move swiftly 
and in a unified way to make dot kids a reality, showing that we can 
work together to make a difference. Now, we should move forward with 
similar resolve to ensure that the dot kids domain is a viable means 
for parents to protect our most precious and vulnerable of resources, 
our children, as well as an effective tool for them to learn about 
their world. I look forward to hearing the informed testimony of our 
esteemed guests, and thank them for their advocacy of the children.

    Mr. Upton. Well, we are very happy for your participation 
this morning. We are joined by Mr. Michael Gallagher, the 
Acting Assistant Secretary of Commerce for Communications and 
Information from the National Telecommunications and 
Information Administration under the Department of Commerce; 
Mr. Richard Tindal, VP of Internet Registry Services for 
NeuStar; Ms. Cynthia Johanson, senior VP for Interactive and 
Education for PBS: and Ms. Teri Schroeder, CEO and program 
director of i-SAFE America from California.
    We welcome all of you. We appreciate that your statements 
were ready for us on a timely basis. I was able to look at them 
all last night. Your statement will be made a part of the 
record in its entirety. At this point, we would like to give 
each of you 5 minutes to discuss your statement at which point 
we will then ask questions.
    Mr. Gallagher, we will begin with you. Welcome.

 STATEMENTS OF MICHAEL D. GALLAGHER, ACTING ASSISTANT SECRETARY 
OF COMMERCE FOR COMMUNICATIONS AND INFORMATION ADMINISTRATION, 
 U.S. DEPARTMENT OF COMMERCE; RICHARD TINDALL, VICE PRESIDENT, 
 INTERNET REGISTRY SERVICES, NEUSTAR, INC.; CYNTHIA JOHANSON, 
SENIOR VICE PRESIDENT, INTERACTIVE AND EDUCATION, PBS; AND TERI 
   SCHROEDER, CEO AND PROGRAM DIRECTOR, I-SAFE AMERICA, INC.

    Mr. Gallagher. Chairman Upton, I would like to thank you 
and Mr. Markey and the members of the subcommittee for inviting 
me to testify here today. It is a pleasure and honor to be here 
in this historic room, which is where I first learned the 
meaning of leadership, bipartisanship and the importance of 
service to the American people.
    This committee was the impetus behind the effort to create 
safe spaces on the Internet for children. I appreciate this 
opportunity to talk about the steps NTIA has taken to implement 
the Dot Kids Act, and, at this juncture, 8 months after the 
site has been created and available to the public, I also want 
to acquaint the committee with our plans to develop the full 
potential of the kids.us domain.
    Internet access has benefited children enormously, giving 
them new research tools and information sources, expanded 
learning opportunities and connections to an endless amount of 
resources. As we know, parents want the Internet to be a safe 
place where children can access educational material and enjoy 
their experience.
    The kids.us space provides us with an opportunity to create 
a unique environment where that can happen, and I share the 
personal reflections by Mr. Cox and Mr. Terry about their own 
families because I have three digital children myself.
    Unfortunately, Internet access also potentially exposes 
children to unsafe content. The FBI considers online child 
pornography and child sexual exploitation to be the most 
significant cybercrime problem involving children within its 
jurisdiction. Between fiscal years 1996 and 2002 the number of 
online child pornography and sexual exploitation cases opened 
by the FBI has increased nearly 2,000 percent, and that is just 
in 6 years.
    The Dot Kids Act gives parents and educators an additional 
tool to help protect children from these dangers. When 
President Bush signed the Dot Kids Act into law, he hailed it 
as ``a wise and necessary step to safeguard our children while 
they use computers and discover the great possibilities of the 
Internet.''
    As you know, NTIA awarded NeuStar a contract in October 
2001 to manage the .us domain. Passage of the Dot Kids Act in 
December 2002 required NTIA to amend this contract to establish 
a child-friendly space. NTIA is required to oversee the 
development of kids.us in accordance with specific content, 
enforcement and registration obligations. It also directs NTIA 
to publicize the availability of the new domain and to educate 
parents regarding the use of the kids.us domain in combination 
with blocking and filtering technologies.
    With respect to the overall management of the .us contract, 
NeuStar is meeting our expectations by expanding the .us 
domain. NeuStar is working cooperatively with NTIA to implement 
the provisions of the act.
    In September 2003, NeuStar opened the registration of 
kids.us and, I note, 3 months ahead of the deadline established 
by the act. In November, the Department of Commerce approved 
NeuStar's subcontract with KidsNet, a Florida company that is 
providing content review and monitoring services for kids.us.
    In the 8 months since the creation of the kids.us space, 
over 1,700 domain names have been registered in kids.us, such 
as Crayola.kids.us, Hasbro.kids.us, LegoLand.kids.us, Curious
George.kids.us, and my kids' favorite, Yahooligans.kids.us.
    Currently, kids.us is home to 13 active Web sites, and we 
understand more are coming. These Web sites showcase 
information about arts and entertainment, computers and 
technology, sports and recreation, and science and government 
and much more. I applaud the early entrees to the site and 
encourage others to give it strong consideration.
    Furthermore, parents can use this new domain in conjunction 
with existing screening and filtering technology to protect 
their children.
    NTIA believes there is still much work to be done to help 
generate widespread interest and support for kids.us. NTIA is 
making a concerted effort to reach broadly across government, 
corporate and nonprofit sectors to promote the availability of 
the kids.us domain. We have sent letters to U.S. Government 
departments and agencies encouraging their participation in 
kids.us.
    Last month, Secretary of Commerce Don Evans sent letters to 
39 companies and organizations with interesting children's 
content on their Web sites today. The Secretary encouraged 
groups, such as Big Brothers Big Sisters, Major League 
Baseball, the National 4-H Council, Viacom and the Children's 
Television Workshop, to register a kids.us name and post child-
friendly content on the site. We are hopeful that these 
stewards of child-friendly content will meet the call.
    NTIA has additional plans to develop the kids.us domain. We 
plan to host a forum this summer highlighting the kids.us 
domain as well as the filtering and blocking technology 
available to parents and teachers to use in conjunction with 
the domain. We hope you and your colleagues in the House and 
Senate will be able to join us, as we discuss a host of issues, 
including content development, the use of technology, and how 
to best reach parents, teachers and others with an interest in 
kids.us.
    The administration believes that the success of the domain 
will come with a shared responsibility by all stakeholders. We 
witnessed widespread bipartisan support for the Dot Kids Act in 
Congress, and we applaud the continued support for the kids.us 
space by members of this committee, especially, Mr. Chairman, 
yourself, Mr. Markey, Mr. Shimkus.
    Your continuous promotion of the site goes a long way 
toward bringing a safe, friendly site for children to the 
country. We are hopeful that many companies will heed your 
call, along with the call of my boss, Secretary Evans, to 
develop additional content for the space.
    In closing, it is clear that all preparatory legal and 
technical thresholds for the launch of the .kids space have 
been met either early or on time, but much remains to be done 
to realize the full potential of this new safe online 
environment for American families and American children. That 
deserves our best effort. NTIA is prepared to work with 
Congress and other stakeholders--government and corporate and 
nonprofit content providers--to protect children as they 
explore the online world.
    Again, thank you for the opportunity to be here. I look 
forward to answering your questions.
    [The prepared statement of Michael D. Gallagher follows:]
Prepared Statement of Michael D. Gallagher, Acting Assistant Secretary 
  for Communications and Information, National Telecommunications and 
        Information Administration, U.S. Department of Commerce
    Chairman Upton, I would like to thank you and the members of the 
Subcommittee for inviting me to testify here today. This committee was 
the impetus behind the effort to create safe spaces on the Internet for 
children. I appreciate the opportunity to review with you the steps 
that the National Telecommunications and Information Administration 
(NTIA) has taken to implement the Dot Kids Act. I also want to acquaint 
you with our plans to develop the full potential of the kids.us domain.
                               background
    The Dot Kids Act reflects the significant role the Internet now 
plays in the lives of our children. According to NTIA's 2002 report A 
Nation Online, almost 60 percent of American children between the ages 
of 5 and 17 use the Internet. Ninety-nine percent of public schools in 
the United States had access to the Internet according to the U.S. 
Department of Education's National Center for Education Statistics as 
of fall 2002.
    Internet access has benefited children enormously by giving them 
new research tools and information sources, new avenues of expression, 
expanded and more collaborative learning opportunities, and connections 
to other communities. Parents want the Internet to be a place where 
children can access educational material and enjoy their experience. 
The kids.us space provides us with an opportunity to create a unique 
place to do that.
    Unfortunately, Internet access also potentially exposes children to 
unsafe content. While some children have actively sought out 
inappropriate content, many others unwittingly have been confronted 
with pornography, indecent materials, hate sites and violent images. 
Some children, through participation in chat rooms and other 
interactive forums, have become vulnerable to online stalkers or 
predators. The Federal Bureau of Investigation (FBI) considers online 
child pornography and child sexual exploitation to be the most 
significant cyber crime problem confronting the FBI that involves 
crimes against children. Between fiscal years 1996 and 2002 the number 
of online child pornography and child sexual exploitation cases opened 
by the FBI went from 113 to 2,370, representing a 1,997 percent 
increase in just 6 years.
                            the dot kids act
    Congress responded to these growing concerns by passing the Dot 
Kids Act, which gives parents and educators an additional tool to help 
protect children from these dangers. When President Bush signed the Dot 
Kids Act into law, he hailed it as ``a wise and necessary step to 
safeguard our children while they use computers and discover the great 
possibilities of the Internet.''
    As you know, NTIA awarded NeuStar a contract in October 2001 to 
manage the .us domain. The Dot Kids Act required NTIA to amend this 
contract to establish a child-friendly space. NTIA was also required to 
oversee the development of kids.us in accordance with specific content, 
enforcement and registration obligations. The law also directed NTIA to 
publicize the availability of the new domain and educate parents 
regarding the use of the kids.us domain in combination with blocking 
and filtering technologies.
                   establishing a safe kids.us space
    With respect to the management of the .us contract, NeuStar has met 
our expectations by expanding the .us domain. NeuStar has also worked 
cooperatively with NTIA to implement the provisions of the Dot Kids 
Act. Since the Act's passage in December 2002, NeuStar has met the 
following contractual obligations.
    In February 2003, NTIA modified the existing .us contract with 
NeuStar to create a kids.us space. In May 2003, NTIA and NeuStar 
reached an agreement on the procedures, policies, subcontracts and fee 
schedule to implement kids.us. On September 4, 2003,--NeuStar opened 
the registration of kids.us, three months before the deadline 
established by the Act. Four days later, the Smithsonian Institute 
posted the first active web site within kids.us. In November 2003, the 
Department of Commerce approved NeuStar's subcontract with KidsNet, a 
Florida company that is providing content review and monitoring 
services for kids.us. And finally, on December 4, 2003, NeuStar 
submitted the first annual report to Congress on the development and 
implementation of kids.us.
    In the eight months since the creation of the kids.us space, over 
1,700 domain names have been registered in kids.us, such as 
Crayola.kids.us, Hasbro.kids.us, Lego Land.kids.us, 
CuriousGeorge.kids.us, and Yahooligans.kids.us. Currently, kids.us is 
home to thirteen active websites. These websites showcase information 
about arts and entertainment, computers and technology, sports and 
recreation, science and government, and much more. For example, the 
Smithsonian Institute hosts information about the Apollo 11 mission to 
the moon and America's Presidents and First Ladies. The General 
Services Administration website provides kid-friendly information about 
the U.S. Government. The National Oceanic and Atmospheric 
Administration (NOAA) website teaches children about the hazards of 
severe weather such as tornadoes, lightning, hurricanes and winter 
storms. And, the ABCKids website features games and activities from 
their most popular Saturday morning cartoon line-up.
    Furthermore, parents can use this new domain in conjunction with 
existing screening and filtering technology. For example, parents or 
teachers can adjust their web browsers to restrict children's browsing 
to the kids.us domain. They can also use existing technologies that are 
already installed on their computer systems in conjunction with kids.us 
to protect their children. These added technology protections will help 
ensure that children have safe experiences when they go online.
                       publicizing the new domain
    NTIA believes that there is still much work to be done to help 
generate widespread interest and support for kids.us. At a kick-off 
event in July 2003, NTIA held a public briefing in conjunction with 
this Committee here in the Rayburn Office building. As you will recall, 
this briefing announced the availability of kids.us and encouraged 
registration of domain names and use of this domain space.
    Last October, President Bush declared a ``Protection from 
Pornography Week'' and highlighted the availability of the kids.us 
domain as part of the Administration's efforts to protect children from 
harmful online content.
    NTIA has also made a concerted effort to reach broadly across 
government, corporate and non-profit sectors to promote the 
availability of the kids.us domain. NTIA sent over 70 letters to 
various U.S. government departments and agencies, encouraging their 
participation in kids.us. As a result, approximately 80 names have been 
reserved for future use by these agencies. Additionally, NTIA's webpage 
prominently displays a link to the kids.us registry website through the 
kids.us logo.
    Last month, Secretary of Commerce Donald Evans also sent letters to 
39 companies and organizations with interesting children's content on 
their websites. The Secretary encouraged groups, such as Big Brother 
Big Sisters, Major League Baseball, the National 4-H Council, Viacom 
and the Children's Television Workshop, to register a kids.us name and 
post child-friendly content on the site. We are hopeful that these 
stewards of children-friendly content will meet the call.
                             the road ahead
    NTIA has additional plans to develop the kids.us domain. We plan to 
host a forum this summer highlighting the kids.us domain as well as the 
filtering and blocking technology available to parents and teachers to 
use in conjunction with the domain. This forum will discuss content 
development, the use of technology, and how best to reach parents, 
teachers and others with an interest in kids.us.
    NTIA also plans to submit, and hopefully have published, articles 
promoting the availability of kids.us in child-friendly publications 
such as the Boy Scout's ``Boys Life'' magazine, and within the 
Department of Justice's ``Parent's Guide to Internet Safety.'' NTIA has 
been in discussions with these and other groups about publishing 
kids.us information.
    NTIA has maintained an excellent working relationship with NeuStar, 
which shares the goal of creating an attractive and robust kids.us as a 
haven for children on the Internet. NeuStar recently shared with NTIA 
what the company has done to inform potential content providers of the 
opportunities presented by the kids.us domain. NeuStar provided us with 
a detailed marketing program that includes plans for multi-media 
advertising, direct marketing, a registrar incentive program, and a new 
public relations campaign. NeuStar's goal is to increase the number of 
registrations and to encourage registrants to post content for 
children. We were pleased and encouraged by these plans and look 
forward to working with NeuStar on implementing these ideas.
    The Administration believes that the success of the domain will 
come with a shared responsibility by all stakeholders. We witnessed 
widespread bipartisan support for the Dot Kids Act in Congress. I 
applaud the continued support for the kids.us space by Members of this 
Committee, especially Representatives Shimkus, Upton and Markey. Your 
continuous promotion of the site goes a long way toward bringing safe, 
child-friendly content to the site. We are hopeful that many companies 
will heed your call to develop additional content for the kids.us 
space.
    The non-profit community deserves special recognition for being 
among the first to develop interesting content for the kids.us domain. 
Independent groups, such as Minnesota Kids, the St. Nicholas Center and 
Tubehead, have committed their limited budgets and staff to the 
creation and viability of their kids.us sites. We hope many more non-
profits, government agencies, and companies will follow this lead.
    Creating a safe and useful place on the Internet for our children 
is a necessary goal that deserves our best efforts. NTIA is prepared to 
work with the Congress and other stakeholders--government, 
corporations, and non-profits--to protect children as they explore the 
online world.
    Again, thank you for this opportunity to testify. I will be happy 
to answer any questions you may have.

    Mr. Upton. Mr. Tindal?

                  STATEMENT OF RICHARD TINDALL

    Mr. Tindal. Mr. Chairman, Mr. Shimkus, Mr. Markey, and 
distinguished members of the committee, my name is Richard 
Tindal, and I am vice president of Registry Services for 
NeuStar. I appreciate the opportunity to appear before you 
today to discuss NeuStar's implementation of the Dot Kids 
Implementation and Efficiency Act of 2002.
    NeuStar is very proud of its achievements in helping to 
carry out the objectives of the Dot Kids Act. The .kids.us 
domain has over 1,700 names registered and 13 live sites 
available for use today.
    We believe that kids.us is an important public resource for 
America's children, and we express our appreciation for the 
leadership and dedication this committee has shown in creating 
this domain and in supporting our efforts to make kids.us a 
reality for our Nation's children.
    We also express our gratitude to the Department of Commerce 
for their constant assistance and support in this endeavor.
    NeuStar is committed to making kids.us a success, and we 
look forward to continuing to work with you to accomplish the 
important objectives of the Dot Kids Act.
    Since its founding, NeuStar, a privately held technology 
and registry company, has established itself as the premiere 
trusted and mutual provider of critical infrastructures 
services and has developed lines of business serving both the 
telecommunications and the Internet industries.
    NeuStar operates the official directory for all North 
American telephone numbers and manages the data base that 
carriers rely on to route billions of telephone calls each day.
    NeuStar also operates a state-of-the-art Internet registry, 
managing all names in the .us top-level domain and, with our 
joint venture partner, Melbourne IT, the names in the .biz top-
level demand.
    Finally, NeuStar's registry handles the routing needs of 
data services, such as multimedia messaging services, and we 
are a leading provider of OSS clearinghouse services.
    The question of how we as a society can protect children on 
the Internet is an important and challenging one for all of us. 
There are numerous tools available, including browser filters, 
educational campaigns, rating systems and, of course, kids.us. 
Each of these options contribute something important and 
valuable to attaining the goal of Internet safety for children.
    NeuStar remains committed to the success of kids.us and 
will continue to manage the domain and advance the goals laid 
out by Congress.
    NeuStar's first task was to define the policies and 
procedures that would govern the kids.us domain. We conducted a 
public outreach effort, consulting with child advocacy groups 
and educators, to develop the guidelines for what material 
would be acceptable for kids.us. NeuStar then created 
procedures that define the process for enforcement of kids.us 
content policy. A registration and content-review process 
consistent with the Dot Kids Act was then developed.
    We have relied on our experience implementing .biz and .us 
and developed an operational model that would both protect and 
preserve the requirements of the Dot Kids Act while providing 
clarity to potential users.
    With this operational model defined, NeuStar's technical 
staff made the modifications to the .us registry necessary to 
accommodate new registrations at the third level. This 
technical effort involved the development of new technical 
services, the modification of source code, the creation of a 
content management system and an end-user directory, as well as 
certain additional support mechanisms.
    The launch of kids.us was a technical and operational 
success. On September 4 at noon Eastern Standard Time, NeuStar 
opened registrations to the general public. Today, 11 
accredited registrars or resellers have sold more than 1,700 
kids.us names to the public.
    The continuing challenge before all of us is to find 
incentives for those end users to activate content and for new 
customers to acquire and use .kids.us names.
    In this respect, beginning June 1 of this year, NeuStar 
will reintroduce the kids.us domain to the marketplace by 
implementing a multifaceted marketing campaign that includes 
advertising, public relations, customer outreach, financial 
incentives and direct marketing programs.
    This new program is designed to broaden consumer awareness 
and use of the kids.us name space, encourage the activation of 
content and increase the number of kids.us domain name sites.
    By increasing public, corporate and nonprofit awareness of 
the kids.us opportunity and offering financial incentives to 
our registrar sales channel, we will initiate a call to action 
for those domain holders that have not yet taken the important 
step of developing content and becoming live participants in 
the kids.us space.
    In conclusion, NeuStar is committed to making kids.us a 
success and providing a critical service to children, parents 
and educators throughout the Nation. We take great pride in 
having developed and launched what we view to be an important 
new public resource for America's children.
    NeuStar has accomplished every task identified in the 
kids.us act, and, in an effort to enhance the domain, we have 
delivered more than was expressly required.
    With our new marketing program, we continue to take the 
steps needed to enhance and improve the kids.us domain. We 
cannot, of course, do this alone, and, as I noted at the start 
of this testimony, we welcome, recognize and appreciate the 
leadership and interest and focus that this committee has 
provided and the ongoing and consistent support we have 
received from the NTIA.
    We look forward to continuing our work with you in this 
special role as the registry for kids.us.
    [The prepared statement of Richard Tindall follows:]
    Prepared Statement of Richard Tindal, Vice President, Registry 
                        Services, NeuStar, Inc.
                                summary
    Mr. Chairman, Mr. Shimkus, Mr. Markey and distinguished Members of 
the Committee. I am Richard Tindal, Vice President, Registry Services 
for NeuStar, Inc. (``NeuStar''). I appreciate the opportunity to appear 
before you today to discuss NeuStar's implementation of the Dot Kids 
Implementation and Efficiency Act of 2002 (the `Dot Kids Act''). 
NeuStar is very proud of its achievements in helping to carry out the 
objectives of the Dot Kids Act. The Dot Kids domain is up and running 
today with over 1700 names registered and thirteen live sites available 
for use.
    We believe that kids.us is an important public resource for 
America's children and express our appreciation for the leadership and 
dedication this Committee has shown in creating this domain and at 
every stage, in supporting our efforts to make kids.us a reality for 
our Nation's children. NeuStar is committed to making kids.us a success 
and we look forward to continuing to work with you to accomplish the 
important objectives of the Dot Kids Act.
    I will begin my testimony by providing background on NeuStar and 
the steps taken prior to and since enactment of the Dot Kids Act to 
carry out the objectives and requirements of the law. This effort 
involved the work of employees from all across NeuStar and resulted in 
a flawless launch of the kids.us domain three months prior to the 
statutory deadline. I will then discuss the status of the domain and 
review NeuStar's 2004 marketing program for kids.us.
                               background
    Since its founding, NeuStar, a privately held technology and 
registry company, has established itself as the premier trusted neutral 
third party provider of mission critical infrastructure services and 
has developed lines of business serving both the telecommunications and 
Internet industries. NeuStar operates the official directory for all 
North American telephone numbers and manages the database carriers rely 
on to rate and route billions of telephone calls each day. NeuStar also 
operates a state of the art Internet registry managing all names in the 
``Dot-US'' top level domain, and with its joint venture partner, 
Melbourne IT, Ltd., the names in the ``Dot-BIZ'' top-level domain. In 
addition, NeuStar 's registry handles the routing needs of data 
services such as Multimedia Messaging Services. Finally, NeuStar is a 
leading provider of Operations Support Services clearinghouse services 
that allow telecommunications and enterprise firms to automate and 
increase the efficiency of ordering, service provisioning and billing 
and customer service functions.
overview of the kids.us pre-launch policy, operational, technical, and 
                        outreach accomplishments
    The question of how we as a society can protect children on the 
Internet is an important and challenging one for all of us. There are 
numerous tools available today including browser filters, educational 
campaigns, and rating systems. Each of these options contributes 
something important and valuable to attaining the goal of Internet 
safety for children. Kids.us provides another important tool for 
America's children. NeuStar remains committed to the success of kids.us 
and will continue to manage the domain and advance the goals laid out 
by Congress.
Policy Accomplishments
    NeuStar's first task, which commenced eight months before enactment 
of the Dot Kids Act, was to define the policies and procedures that 
would govern the kids.us domain. NeuStar conducted a public outreach 
effort, consulting with several child advocacy groups and other 
organizations to develop the guidelines for determining what material 
would be deemed unacceptable for and/or harmful to minors. The 
resulting content policy identifies and defines thirteen categories of 
content that are restricted from kids.us.<SUP>1</SUP> Next, NeuStar 
drafted the kids.us Takedown Procedures. These procedures define the 
process for enforcement of the kids.us Content Policy in a way that is 
transparent, fair and expeditious for the registrants.
---------------------------------------------------------------------------
    \1\ This and all other kids.us policies can be found at 
www.kids.us/content--policy.
---------------------------------------------------------------------------
    Additionally, all Dot-US policies are applicable and enforced in 
the kids.us domain. This includes the US Nexus Requirement, usTLD 
Dispute Resolution Policy, and requirements for accurate Whois data. 
Finally, to implement these new policies, NeuStar modified the Dot-US 
Registrar Accreditation and Registry-Registrar Agreements to include 
the policies and procedures governing the registration of kids.us 
domain names.
Operational Model and Accomplishments
    The next step in developing the framework for kids.us was to 
determine how the registration and content review process <SUP>2</SUP> 
would work, consistent with the Dot Kids Act. We relied on our 
experience implementing Dot-Biz and Dot-US by developing a model that 
would both protect and preserve the requirements of the Dot Kids Act 
while providing as much clarity as possible to potential registrants.
---------------------------------------------------------------------------
    \2\ Content includes all written, dynamic and visual material 
within a website, including the domain name.
---------------------------------------------------------------------------
    When determining how best to ensure the integrity of the kids.us 
domain and to manage the content review and enforcement processes, 
NeuStar concluded that it should directly oversee and manage the 
content review process. We did this because we knew it would be 
important that content review be handled in a neutral fashion, that is, 
for content review to be centrally and consistently administered for 
all registrants. Content review includes several discrete functions: 
developing and maintaining a customer interface to purchase content 
subscriptions, the review of all content within the domain, enforcement 
of the kids.us Content Policy, and customer account management.
    To ensure a competitive registration process, NeuStar maintained 
the existing registry-registrar model whereby only accredited 
registrars sell kids.us domain names to the public. As a result, 
establishing a web presence within kids.us is a 2-step process for any 
interested content provider: (1) registration of a domain name with a 
registrar, and (2) purchase of a content review subscription from 
NeuStar. NeuStar has engaged the support of a subcontractor, Kidsnet, 
Inc., to assist us in the review function, with both the initial and 
ongoing reviews of all active content. This review function utilizes 
both manual reviews as well as a ``spidering,'' filter technology.
Technical Accomplishments
    With the operational model defined, NeuStar's technical staff made 
the modifications to the Dot-US registry necessary to accommodate new 
registrations at the third level. This technical effort involved the 
development of new technical services and support mechanisms needed to 
launch kids.us. These technical modifications included:

 Modifying the source code of the Dot-US registry to accept third-
        level kids.us registrations;
 Modifying the source code of Whois to include kids.us registrant 
        contact data;
 Creating the content management system, and;
 Launching the end-user directory.
    The kids.us namespace is administered from a highly reliable 
infrastructure, offering near real-time registrations and name server 
updates.
Pre-launch Outreach Accomplishments
    Prior to the launch of the kids.us domain, NeuStar conducted an 
outreach program to raise awareness of kids.us, encourage participation 
from registrars, and drive public adoption of the new domain. We were 
able to leverage our existing relationships with the registrar 
community, the contacts we had made through the development of the 
kids.us Content Policy, and media connections to promote the space.
    In summary, NeuStar's pre-launch outreach initiatives included:

 Engaging in media outreach including issuing press releases, sending 
        e-mail messages to a broad range of users, contracting a PR 
        firm to promote Sunrise launch among trademark holders looking 
        to protect their marks (the ``Sunrise Phase'');
 Creating marketing collateral and organizing sales meetings and 
        informational briefing sessions with registrars, and;
 Contacting potential technology partners for browser and directory 
        functionality.
               launch, enforcement, and enhanced services
Launch
    The launch of kids.us was a technical and operational success and 
was conducted in a 2-part process. On June 17, 2003, NeuStar initiated 
the Sunrise Phase for trademark protection, enabling owners of existing 
or pending United States trademarks or service marks to apply for 
kids.us domain names that exactly match their trademarks or service 
marks. To ensure the integrity of the Sunrise Phase, NeuStar compared 
each of the domain name applications received with trademarks applied 
for or registered with the U.S. Patent and Trademark Office on or 
before December 31, 2002.
    On September 4, 2003 at noon E.S.T., NeuStar opened registrations 
to the general public. At the close of the first hour, the registry had 
successfully registered over 400 kids.us names. At the same time that 
open registration began, NeuStar activated the content management 
system. NeuStar flawlessly launched the kids.us domain three months 
prior to the date required by the Dot Kids Act.
Review and Enforcement
    The on-going enforcement of the kids.us domain involves reviewing 
all kids.us content for compliance with the kids.us Content Policy, and 
then enforcing that policy in accordance with the kids.us Takedown 
Procedures. In this initial period following the launch NeuStar carried 
out all aspects of the content review role. To date, NeuStar has had 
very positive experiences in the process of content management and 
enforcement. The content received is generally appropriate for the 
domain. In addition, any content violations found have typically been 
inadvertent hyperlinks or a link to an e-mail box that was missed in 
the registrant's efforts to make a site compliant with the kids.us 
Content Policy. Details of the enforcement activity for the first three 
months are available in the ``Annual Compliance Report on the kids.us 
Domain'' filed with the Congress and the Department of Commerce on 
December 4, 2003, pursuant to the requirements of the Dot Kids Act.
Enhanced Services
    Although not a specific requirement of the Dot Kids Act, NeuStar 
introduced a child-oriented end-user directory to facilitate use of the 
domain by both children and adults. All active sites are listed in this 
directory and are sorted based on the registrant's self-categorization 
of their content. An additional feature at the kids.us homepage is a 
third-party reporting tool. This tool--a user web-form--provides a 
direct mechanism to contact NeuStar 24 hours a day, seven days a week, 
365 days a year to report an alleged content violation within kids.us. 
This tool provides an additional element of safety and strengthens our 
collective abilities to protect children while they are online. In 
January, the kids.us homepage was redesigned and expanded to include a 
public Whois lookup for interested registrants as well as for parents 
to identify the owners of kids.us sites.
               neustar kids.us marketing program for 2004
    On June 1, 2004, NeuStar will re-introduce the kids.us domain to 
the marketplace by implementing a multifaceted marketing campaign that 
includes advertising, public relations, customer outreach and direct 
marketing programs. This new program is designed to: (1) broaden 
consumer awareness and use of the kids.us namespace; (2) encourage the 
activation of content by registrants; and (3) increase the number of 
kids.us domain name registrations.
    The kids.us marketing program will accomplish these goals by 
creating greater awareness among potential registrants and consumers 
through direct and joint marketing, reaching out to existing kids.us 
registrants to encourage content development and activation, and 
energizing the registrar sales channel to promote kids.us more 
actively.
    Through direct and joint public relations activities and 
advertising, NeuStar will work to expand awareness of the kids.us 
namespace and specifically highlight sites already up and running with 
content, as well as those that develop content while the program is 
ongoing. By increasing public and corporate awareness of the kids.us 
opportunity, and offering financial incentives to our registrar sales 
channel to help spread the word, we will initiate a call-to-action for 
those domain holders that have not yet taken the important step of 
developing content and becoming live participants in the kids.us 
namespace.
    The direct marketing component of NeuStar's plan includes: (1) 
banner ad placement on line; (2) direct e-mail campaigns; (3) creative 
marketing promotions to generate end-user interest and (4) direct mail 
campaigns to existing registrants that have not yet turned up content.
    NeuStar will offer the registrar sales channel financial incentives 
intended to encourage registrars to approach those customers who have 
registered domains, but not yet developed or turned up content and 
ensure their support in marketing kids.us domain names. These 
incentives will include limited time revenue sharing and a rebate 
program for new registrations and renewals that extend registration 
terms of existing names.
    These incentives are designed to help increase activation of 
kids.us content and websites and increase awareness of registration 
opportunities in the kids.us namespace. By creating incentives through 
our registrar channel and working directly with companies that have 
already registered domains, NeuStar hopes to encourage the activation 
of kids.us content. Finally, the focus of the public relations 
component of the marketing plan will be to create general awareness 
through press releases and advertising. The media outreach will be 
directed to business press and publications that cover government and 
to Internet trade publications, websites and industry newsletters.
                               conclusion
    NeuStar is committed to making kids.us a success and providing an 
important service to children, parents, and educators throughout our 
nation. We take a great deal of pride in developing and launching what 
we view to be an important new public resource for America's children. 
Like most good things, however, success will not come overnight for 
kids.us. NeuStar expects, consistent with the launch of almost any new 
domain name service, kids.us will follow a normal market adoption 
curve, that is, adoption will be low in the beginning and gradually 
increase over time. Eventually, it will reach a point when the 
registration rate increases and the space will become more visible. 
Increased visibility will depend upon high-profile registrants using 
and promoting their kids.us sites.
    NeuStar's new marketing campaign is designed to increase awareness 
and adoption and accelerate the market acceptance of the new kids.us 
domain.
    NeuStar strongly believes kids.us will continue to mature and grow. 
We fully express our continued commitment to this important public 
resource. NeuStar has accomplished every task identified in the Dot 
Kids Act and in an effort to enhance the domain, delivered more than 
was expressly required. With the marketing program outlined here, 
NeuStar continues to demonstrate that we are taking the steps needed to 
enhance and improve the kids.us domain. We cannot, of course, do this 
alone and as noted at the start of this testimony, we truly appreciate 
the leadership, interest, and attention provided by this Committee and 
the Department of Commerce. We look forward to continuing our work with 
you in this special role as the registry for kids.us.

    Mr. Upton. Thank you.
    Ms. Johanson?

                  STATEMENT OF CYNTHIA JOHANSON

    Ms. Johanson. Mr. Chairman, members of the committee, on 
behalf of PBS and my colleagues from 349 local public 
television stations around the country, I am honored to come 
before you to discuss our shared goal, our goal to offer a 
safe, quality, educational online haven to America's children.
    We are glad to offer both our experience in providing our 
popular PBSkids.org site and in providing a new special site 
under the .kids domain created by Congress.
    PBS and our member stations have at our core a mission to 
educate the public. We have become the standard bearer in 
educational children's television and online educational 
materials. In what looks like a race to the bottom for some, 
PBS remains a safe haven for children and adults from the 
explicit content and extreme commercialism that so many observe 
are the hallmarks of today's media environment.
    Let me start by saying a few words about PBSkids.org which 
we launched in 1997. PBSkids.org Web sites are developed by the 
same educational experts who produced PBS television 
programming for children.
    Since its debut, PBSkids.org has become one of the most 
visited and most trusted spaces for children and their parents 
on the Internet. PBSkids.org currently averages more than 334 
million page views and 16 million unique visits per month, and 
those numbers are growing at a remarkable pace.
    For many children, PBSkids.org is their first experience on 
the Internet, and we take that responsibility very seriously. 
PBSkids.org is a top destination for teachers and for 
librarians across the country.
    Since our launch of PBSkids.org, we have invested enormous 
resources in researching what works and what does not, who 
visits the site, and what content is most useful and popular.
    First, we have learned that kids use the Internet very 
differently from adults. On average, a Web user who comes to 
PBSkids.org views more than 80 pages of content and spends an 
average of 36 minutes per visit. In contrast, an average visit 
to our more grownup-oriented PBS.org site results in about 
seven pages per visit and about 4 minutes on the site.
    Our observations of kids on PBS.org indicate that the most 
popular activities are educational games that allow repeat play 
and address multiple skill levels.
    The second lesson that we have learned is that it is 
critical and possible to provide rich and safe content. Given 
that kids consume so much interactive media so deeply, it is 
essential that we provide them with safe, rich, educational and 
fun content to explore.
    Because kids are such intense users of the Internet, we, 
like you, often ask, ``How can we make sure that kids find 
content that is appropriate and safe for them? How do we 
protect them from the violent, sexually explicit, dangerous and 
overly commercial online content?''
    On PBSkids.org, we think it is important to get kids 
started by teaching them essential Internet navigation skills 
and, most importantly, training them to be critical media 
consumers. Activities like ``Get Your Web License'' explain 
safe surfing skills, like never giving out your full name on 
the Internet and what to do if you click on scary content. Once 
kids master the challenges presented in this online quiz, they 
can print out their own Web license.
    The PBS Kids site is also carefully constructed so that 
kids know where they are at all times. We keep the Web links 
traveling outside the PBS Kids domain to a minimum, and we 
insulate each one with a bridge page alerting kids that they 
are leaving the PBS Kids world, explaining where the link will 
go, and providing a simple what-to-know-before-you-go Web 
literacy tip. When kids encounter the bridge pages, they most 
often follow the clearly marked links back to the content on 
the kids.org site.
    In the kids.us domain, you have addressed the issue by 
taking the linking possibility out of the equation, but we 
think that Web literacy among children continues to be an 
important skill, and we would encourage you to promote Web 
literacy.
    Finally, we have developed over the years a number of 
methods to attract parents, kids, teachers and others to our 
site, and our experience may be helpful to you, from our 
outreach to homeschoolers and community groups to our use of 
kid-targeted search engines, like Yahooligans!
    Given our mission and our experience in this area, we 
certainly applaud you, Mr. Chairman, and this committee, for 
your continued strong interest in online safety for kids, and, 
because we felt it was important to contribute to the success 
of kids.us as an early content contributor, we are proud to 
have launched PBSkids.kids.us on this service.
    In preparation for launching our area of the .kids site, we 
worked in collaboration with every major PBS Kids content 
producer, including Sesame Workshop, Scholastic and WGBH, to 
post 28 interactive games related to 15 different PBS Kids 
series, series you and your children know and love, like 
``Arthur,'' ``Between the Lions,'' ``Clifford,'' 
``Cyberchase,'' and ``Sesame Street.''
    These PBS activities on the .kids site span our wide 
audience range for kids between the ages of 2 and 12 and focus 
on skills and themes, such as language acquisition, math, early 
literacy, problem solving and early science.
    Since we share our goal of developing safe spaces on the 
Internet for children, we would like to respectfully offer some 
comments based on our experience as you move forward on 
implementation of the .kids site.
    First, keep in mind that for many of us who currently have 
deep, interactive sites, the .kids domain presented a unique 
challenge. With limited resources of our own, we needed to come 
up with a way to construct an entirely new site, maintain it, 
keep it fresh and interesting.
    The reluctance of some participants to participate may be 
due in large part to this resourcing issue. I know we struggled 
with it at PBS. I thought you should be aware of it as a 
significant hurdle.
    Second, we at PBS, as you know, as part of our overall 
public broadcasting mandate, are noncommercial. Second only to 
educational content, our not-for-profit status is the one thing 
that parents constantly tell us they most value about PBS.
    We wholeheartedly agree with the goal of the statute to 
create a green-light area of the Internet that will contain 
only content that is appropriate for children under the age of 
13 and is analogous to the creation of the children's section 
of a library.
    The children's section of a library is a safe, welcoming 
place with content on a wide range of age-appropriate issues by 
a diverse set of authors. We would simply urge you to keep an 
eye on the commercial potential of the new domain and monitor 
it regularly to ensure that kids are not explicitly being sold 
to while they are in that space.
    Again, Mr. Chairman, we want to reiterate PBS's strong 
support for you and your colleagues' ongoing efforts to promote 
a safe space for children. We look forward to working together 
on this effort with you in the future, and, if there is any 
specific way we can be helpful, I do hope you will let us know.
    Thank you.
    [The prepared statement of Cynthia Johanson follows:]
     Prepared Statement of Cindy Johanson, Senior Vice President, 
                     Interactive and Education, PBS
    Mr. Chairman, Members of the Committee, on behalf of PBS and my 
colleagues from 349 local PBS stations around the country, I am 
grateful for the opportunity to come before you to discuss our shared 
goal--to offer a safe, quality, educational online haven to America's 
children.
    We commend Congress for recognizing the need to create what has 
been called the Internet equivalent of a wing of a library for kids to 
check out books. As this Committee seeks to evaluate the progress of 
the Dot Kids Implementation and Efficiency Act of 2002, we are glad to 
offer both our experience over the past 7 years providing our 
pbskids.org site, and our newer experience providing a special site 
under the dot-kids domain created by Congress. We hope to offer 
insights into lessons we have learned since launching our dot-kids 
site, and some suggestions on how together we can continue to make the 
new dot-kids domain a success.
    PBS and our member stations have at our core a mission to educate 
the public. In particular, we have become the standard bearer in 
educational children's television and off-air educational materials. 
PBS offers award-winning children's content that educates, enriches and 
entertains, employing the full spectrum of on- and off-air media to 
help build kids' knowledge and strengthen their critical thinking. In 
what looks like a race to the bottom by some, PBS remains a safe haven 
for children and adults from the explicit content and extreme 
commercialism that many observe are the hallmarks of today's media.
    We see our efforts as empowering children to become stronger 
members of their communities, nation and world, and we work closely 
with a growing number of parents, teachers and caregivers as our 
partners in this effort.
Our History
    With the advent of the Internet, PBS recognized that there were 
exciting new opportunities to help educate and entertain children. We 
were at the forefront of bringing children safe and appropriate online 
content. The PBS KIDS Web site, pbskids.org, launched in 1997 as the 
online home of PBS KIDS TV favorites such as SESAME STREET, ARTHUR, 
MISTER ROGERS' NEIGHBORHOOD, among many others.
    PBS KIDS programming meets high educational standards. PBS KIDS Web 
sites are developed by the same educational experts who produce PBS 
KIDS TV programming, and, therefore, we strive to ensure every activity 
on our Web sites meets the same educational goals of their companion 
PBS KIDS TV programs. From BETWEEN THE LIONS to CYBERCHASE to CLIFFORD 
THE BIG RED DOG, we make sure that kids can learn and play with their 
favorite PBS KIDS content in a safe and inviting space.
    Parents and kids trust PBS KIDS. Since its debut, PBS KIDS online 
has grown to become one of the most visited and trusted spaces for 
children--and their parents--on the Internet. pbskids.org currently 
averages more than 334 million pageviews and 16 million unique visits 
per month, and those numbers are growing at a remarkable pace. For many 
children, pbskids.org is their first experience on the Internet and we 
take that responsibility very seriously as we hope to instill a love of 
learning and understanding, at their fingertips through the 
personalized, on-demand experiences made possible by the Web.
    Teachers and librarians rely heavily on pbskids.org. pbskids.org is 
funded in part by the Department of Education through a Ready To Learn 
grant, and because we prominently feature comprehensive resources for 
parents and teachers on every PBS KIDS TV program Web site, it's no 
surprise that pbskids.org is a top destination for teachers and 
librarians across the country. And, we constantly assess what these 
audiences want and need by regularly reviewing site usage, meeting with 
focus groups and by gathering feedback through online surveys.
    pbskids.org has twice won the Wired Kids Safety ``Best of the Web'' 
award, was recently nominated for a Webby award as one of the best 
``youth'' sites on the Web, and throughout the years our TV program-
related Web sites have earned ``Parents Choice'' awards, Prix Jeunesse 
Awards, and the prestigious Japan Prize, which recognizes excellence in 
science and technology.
What We've Learned
    Since our launch of pbskids.org in 1997, we've invested enormous 
resources in researching what works and what doesn't, who visits the 
site and why and what content is most useful and popular. We are 
pleased to be able to share the lessons we've learned with you today.
    First, we learned that kids use the Internet differently from 
adults. In short, they dive deeper and stay longer. On average, a Web 
user coming to pbskids.org views more than 80 pages of Web content in 
one visit. To provide some context, an average pbs.org Web site visit 
results in about 7 Web pages viewed. Similarly, a visitor to pbs.org 
spends about 4 minutes on the site, while those on pbskids.org average 
more than 36 minutes per sitting.
    We have learned that kids go very deep into our pbskids.org Web 
content in every sitting, that they like to share their ideas and 
stories through carefully screened submission ``bulletin boards,'' and 
test their skills through multiple rounds of educational games.
    Both our statistics and our observations of kids on pbskids.org 
indicate that the most popular activities are educational games that 
allow ``repeat play'' and address multiple skill levels. We work hard 
to create activities that can engage kids of broad age and skill ranges 
and invite them to come back and play again. We recommend this 
technique with content on the dot-kids site as well.
    To keep kids interested, we regularly research and test our online 
content to make sure that our entire audience of kids between the ages 
of 2 and 12 can find content that is, at the same time, age-
appropriate, educational and engaging. pbskids.org is built to be 
entirely kid-driven. I believe this is also your goal with the dot-kids 
domain.
    The second lesson we learned is that it is critical, and possible, 
to provide rich and safe content. Given that kids consume so much 
interactive media, so deeply, it's essential that we provide them with 
safe, rich, educational and fun content to explore--and this is what 
pbskids.org is committed to offering.
    But, given the statistics about how much time kids are spending 
online in general and how much media they consume while online we, like 
you, are especially sensitive to the alarms this raises for parents, 
educators, content creators, and certainly many in this room.
    We, like you, often ask, how do we make sure that kids find content 
that is appropriate and safe for them? How do we protect them from 
violent, sexually explicit, dangerous or overly commercial online 
content?
    On pbskids.org, we think it's important to get kids started by 
teaching them essential Internet navigation skills and, most 
importantly, train them how to be critical media consumers. Activities 
on pbskids.org like ``Get Your Web License'' explain safe surfing 
skills--like never giving out your full name on the Internet and what 
to do if you click on ``scary'' content. Once kids master the 
challenges presented in this online quiz, they can print out their own 
``Web License.''
    The PBS KIDS site is also carefully constructed so that kids know 
where they are at all times. We keep the Web links traveling outside 
the PBS KIDS domain to a minimum and insulate each one with a ``bridge 
page'' alerting kids that they are leaving the PBS KIDS world, 
explaining where the link will go, and providing a simple ``What to 
know before you go'' Web literacy tip.
    We know from focus group testing that kids quickly learn how to 
navigate within pbskids.org and take these site boundaries very 
seriously. When kids encounter ``bridge pages,'' they most often follow 
clearly marked links back into pbskids.org.
    In the kids.us domain you have addressed this issue by taking the 
linking possibility out of the equation, but we think that Web literacy 
among children continues to be an important educational tool and we 
would encourage you to consider a similar concept for the dot-kids 
domain.
    Finally, we have developed over the years a number of methods to 
attract parents, kids, teachers and others to our site. I know you are 
interested in letting kids and parents know about the safe haven you 
have created, so we'd like to share some insight into what has brought 
so many kids, parents and educators to pbskids.org.
    PBS and our local PBS stations believe it's important to not only 
make great content available, but also ensure that it actually reaches 
as many American children as possible. Universal coverage has always 
been at the heart of our TV mission.
    We employ a variety of outreach techniques on behalf of pbskids.org

 We include numerous broadcast mentions of the Web site address at the 
        end of our children's programs
 We feature the address on outreach materials and print ads appearing 
        in national publications read by parents, kids and educators.
 We reach out to both school- and home-based educators to help bring 
        them the message that pbskids.org offers broad educational Web 
        content that can help their kids.
 We work with the major search engines--especially those aimed at 
        children, like Yahooligans--to ensure that they are pointing to 
        our content.
 The impact and reach of our Web content is further extended through 
        local PBS stations' outreach activities, many carried out in 
        partnerships with other community institutions including, for 
        instance, local Head Start programs, neighborhood libraries, 
        and a variety of childcare institutions.
    We would be happy to work with you to help you develop techniques 
for reaching your audiences. Parents and educators are a huge resource 
for driving kids to your new domain. Promoting the site with search 
engines and with other sites and mediums that are reaching children is 
also important.
    We have learned, and we've described for you today, how much depth 
kids require when they go on line. They visit frequently and stay a 
long time. If we can be helpful to you in providing guidance for how to 
develop the dot-kids domain into a place that kids visit often and has 
the kind of content to engage them for the length of time they want to 
stay, we'd be happy to share additional information about what we've 
learned over the years.
Our Presence on the Dot-Kids Domain
    Given our mission and experience in this area, we certainly applaud 
you, Mr. Chairman, and this Committee, for your continued strong 
interest in kids online safety. We feel it is important for PBS KIDS to 
participate in kids.us as an early content contributor, and we are 
proud to have launched pbskids.kids.us on this service.
    In preparation for launching our area of the dot-kids site, we 
worked in collaboration with every major PBS KIDS content producer--
including Sesame Workshop, Scholastic and WGBH--to post 28 interactive 
games related to 15 different PBS KIDS series. We are featuring 
activities from these PBS KIDS programs on the dot-kids site:

ARTHUR, BARNEY, BERENSTAIN BEARS, BETWEEN THE LIONS, CAILLOU, CLIFFORD 
        THE BIG RED DOG, CYBERCHASE, DRAGON TALES, GEORGE SHRINKS, 
        MISTER ROGERS' NEIGHBORHOOD, READING RAINBOW, SAGWA THE CHINESE 
        SIAMESE CAT, SESAME STREET, TELETUBBIES and ZOOM.
    These PBS activities on the dot-kids site span our wide audience 
range for kids between the ages of 2 and 12, and focus on skills and 
themes such as language acquisition, math, early literacy, problem 
solving and early science.
    We feel that this is a robust and representative range of PBS KIDS 
content, and now that the content is live, we will continue to monitor 
the traffic and usage of the kids.us domain space to determine how and 
when new content should be added.
Our Suggestions for the Future
    PBS shares your goal of developing safe spaces on the Internet for 
children. To that end, we would like to respectfully offer some 
comments based on our experience as you move forward on implementation 
of the dot-kids site.
    First, keep in mind that for many of us who currently have deep, 
interactive sites, the dot-kids domain presented a unique challenge. 
With limited resources of our own, we needed to come up with a way to 
construct an entirely new site, maintain it, and keep it fresh and 
interesting. The reluctance of some to participate may be due in large 
part to this resourcing issue. I know we struggled with it at PBS. I 
thought you should be aware of this as a significant hurdle.
    Second, we at PBS, as you know, as part of our overall Public 
Broadcasting mandate, are non-commercial. You, Mr. Chairman, are very 
well aware of the opportunities and challenges this provides us as a 
broadcasting entity. But it is something in the kids area that we are 
very proud and protective of. Second only to educational content, it is 
the one thing that parents constantly tell us they most value about 
PBS. As a parent, you know how important it is to be able to sit down 
with your child and view television that is not only truly educational, 
but that won't bombard you with advertising for the most popular toy of 
the holiday season. Children are especially vulnerable to commercial 
messages--any parent certainly knows the power advertising has on kids!
    We at PBS would simply urge you to examine the potential for 
commercialism within the dot-kids domain. We understand that we are 
used to a different standard, but our standard is one that we believe 
strongly is good for kids--and it was also mandated by Congress.
    As stated in The Dot Kids Implementation and Efficiency Act of 
2002, the goal of .kids.us was to create a ``green-light area of the 
Internet, that will contain only content that is appropriate for 
children under the age of 13 and is analogous to the creation of a 
children's section within a library.''
    We agree wholeheartedly with that description. The children's 
section of the library is a safe, welcoming place with content on a 
wide range of age-appropriate issues by a diverse set of authors. We 
would simply urge you to keep an eye on the commercial potential of the 
new domain and monitor it regularly to ensure that kids are not 
explicitly being sold to while they are in that space.
    Again, Mr. Chairman, we want to reiterate PBS' strong support for 
your and your colleagues' ongoing efforts to promote a safe online 
space for children. We look forward to working together on this effort 
with you in the future. If there is any specific way we can be helpful 
in the near future, I hope you will let us know.
    Thank you.

    Mr. Upton. Thank you very much.
    Ms. Schroeder?

                   STATEMENT OF TERI SCHROEDER

    Ms. Schroeder. Thank you very much.
    Today, what I am going to do is bring information to you 
about what i-SAFE America is doing in the schools.
    As we know, the Internet has dramatically changed the way 
that we do business and also the way that kids interact with 
one another. What we have done is we actually have taken the 
approach of education and youth empowerment.
    For purposes of the .kids domain, I think it is very 
important that you look at what really is of interest to the 
kids in terms of what are the age brackets that the kids are 
doing various things and what is appealable to them and, 
actually, the activities that they do online.
    As you can see here, what I showed you earlier in this 
screen was the curriculum that we have, and we have curriculum 
through grades K through 12.
    This particular screen that you are looking at is the Web 
cast. This is in the high school, and they actually produce 
these Web casts themselves, so you really have peer-to-peer. 
What we have here is the high school kids that are actually 
mentoring the younger kids. So they actually go into the middle 
schools and they teach them about Internet safety concepts.
    What I would like to do is address the activities of kids 
online. We spend a lot of time looking at those activities of 
those kids relative to assessments. We do pre-and post-
assessments. To date, we have done over 160,000 assessments.
    Kids like to chat, instant message, and they like to e-
mail. When they come home, what they do is they jump on their 
computer and they have their buddy list, and their buddy list 
is what they say is their friends, and there could be anywhere 
between 10 and 25, 30 friends on their buddy list.
    As you can see on the chat chart that you have up here, as 
the kids get older, particularly into high school, their 
chatting starts to subside a bit, but that still does leave a 
degree of high degree of chatter.
    Here are some statistics in terms of data that we obtained 
from the kids directly. Now what these kids are telling us is 
what they do online, why they are online, and where they hang 
out online.
    As you can see, 80 percent of them spend at least 1 hour on 
the Internet. Thirty percent of those polled they use instant 
messaging, and that is their way to keep in contact with their 
friends, and 36 of them have seen something on the Internet 
that can be dangerous to them.
    Twenty-one percent of them have computers in the bedroom. 
Fifty-two percent prefer to be surfing alone. When you have the 
fifth and sixth graders, very few of them are sitting there 
with their parents at the computer as they are going around the 
Internet.
    Here it is very interesting. We also did a parent survey of 
1,600 parents. There truly is a digital divide between parents 
and kids. As you can see here, in the parents' Internet 
assumption, 88 percent felt that they know where their kids go 
online, and 92 percent of them said, ``We do have rules.''
    The youth perception, same kids, 33 percent said, ``We do 
not tell our parents what we are doing,'' and 40 percent of 
them say, ``We do not even discuss Internet safety with our 
parents,'' and 34 percent said, ``We do not have any rules.''
    These are the States here that we actually obtained those 
assessments from. As I said earlier, there were 160,000 
assessments.
    So we have a problem here. The problem is the fact that 
kids do what they do online, and, from i-SAFE's perspective, 
what we have been doing is educating and empowering them and 
really working together with those kids being able to enhance 
their critical thinking skills so they can be independent 
decisionmakers but also be safe online.
    What we have done is we have looked at the activity that 
they are most prevalent in doing and which consumes most of 
their time online, which is the two-way communication, and we 
have come up with the school-issued Digital Credential Program 
which is called the ISTEP.
    That program, at the first day of school, is an opt-in for 
the kids, and their parents would allow them to obtain their 
first Digital Credential. The school is actually the one that 
is the authenticator because they have all this information on 
the kids. They know where they live, they know their age, and 
they know, in fact, that they are kids.
    As we know, Digital Credentials have been used for a long 
time. We have been using them in transactions for financial.
    So the kids can use any USB port, it can be carried around 
on a keychain, and, if, in fact, they want to go to Yahoo!, 
Microsoft, or any of the other chats, those chat rooms would be 
opting in as well, and it would identify them as a child.
    We also have built in auditing, tracking so if there should 
be any type of problem relative to abuse online that law 
enforcement would be able to have the tools to be able to very 
quickly go in and look as well.
    One thing you do need to know is that from the users' other 
end, the only thing that shows is the gender. So, if I am a 
child and I say, ``I would like into go into a chat room with 
11- and 12-year-olds,'' I know there are 11- and 12-year-olds 
in that chat room and male or female.
    What i-SAFE does is actually teaching the kids who are 
going to be cybercitizens. We are in a global economy, and they 
will be cybercitizens for the rest of their lives. So, 
hopefully, what this will do is this here will be able to give 
those kids the tools that they have never had before. We are 
looking at a culture adoption, and we truly believe that it 
will be implemented much like the seat belt law.
    So I want to thank you very much for letting me be here to 
testify today.
    [The prepared statement of Teri Schroeder follows:]
 Prepared Statement of Teri Schroeder, Chief Executive Officer/Program 
                     Director, i-SAFE America, Inc.
    Thank you, Chairman Upton and Ranking Member Markey, for inviting 
me to testify before the House Subcommittee on Telecommunications and 
the Internet at the hearing entitled ``The 'Dot Kids'' Internet Domain; 
Protecting Children Online.
    Predatory acts against our children are among the most heinous of 
crimes perpetrated within our society. Historically, communities as a 
collective take deliberate and specific actions to protect their 
children in an effort to prevent these heinous acts. These protective 
actions include: education--teaching children to be wary of strangers, 
to recognize and avoid dangerous situations, to cry for help when they 
feel threatened.
    Our nation is now faced with technological advancements that allow 
even the youngest of children to have access to the Internet. Students 
today explore the wonders of the world by transporting themselves 
through cyberspace. They can travel to the brightest, most intellectual 
domains of the universe and conversely, they may travel to the darkest, 
most detestable realms of the human imagination; and, they travel this 
world alone. A universal paradigm shift has occurred in the methods and 
means available to child predators in pursuit of their prey; and as 
such a universal paradigm shift has occurred on the preventative 
tactics that we employ in our efforts to protect our nations youth 
against these predators.
    The content of my testimony today will address the ramifications of 
this universal shift as our nations youth explore the wonders of the 
Internet. We truly are a global economy and as such our nations youth 
are cyber citizens engaging in online activities. Those activities 
include socialization (two way communication whether that be through 
email, chat or instant messaging), games, shopping, entertainment and 
education.
    I will be addressing the role of education and youth empowerment 
and the need to empower our nations youth with the appropriate tools to 
minimize the number of predatory acts predicated against them. It is 
imperative that a proactive well-balanced approach be deployed to 
support the challenge of embracing the activities of our nations youth 
online.
    i-SAFE America is dedicated to: 1) implementing a standardized 
Internet safety education program throughout the nation that provides 
kids and teens with essential tools to reduce the risk of their being 
victimized while engaged in activities via the Internet; and 2) 
launching an Outreach Campaign that empowers students to take control 
of their online experiences and make educated, informed, and 
knowledgeable decisions as they actively engage in cyber activities.
    The i-SAFE Internet safety curriculum is a teaching and learning 
experience, which incorporates best practices as they are defined by 
the latest educational research, and correlates them to accepted 
educational standards. This is accomplished by providing a broad range 
of materials and formats which meet a variety of teaching and learning 
needs for students and educators in grades Kindergarten through 12. 
Topics are centered on up-to-date information pertinent to safety 
issues, which confront today's youth through continuing advances in 
Internet technology.
    The curriculum creates a successful learning environment through a 
model of integrated critical thinking activities and guided 
opportunities for youth empowerment. Active participation in i-SAFE 
student activities promotes acquisition of knowledge, analysis of 
online behaviors, construction of solutions to Internet safety problems 
and issues, and involvement in the spread of Internet safety concepts 
to others. Through this process, students enhance and enrich their own 
lives, the lives of other students, and the community at large, as they 
engage in creating a safer cyber community.
    Our children now live in two diverse worlds: their physical world 
and the world of cyberspace. As such, they essentially live in two 
cultures that often conflict. To date, many of the lessons learned in 
the physical world don't seem relevant in cyberspace as these children 
reach out to strangers as friends. This paradigm shift demands new 
innovative educational programs, and tools, for our children; their 
parents and the community. It is essential that children, as they 
travel their world of cyberspace alone, be provided with the knowledge 
and tools they need to independently recognize and avoid dangerous 
situations online; to actively engage learned proactive techniques to 
more safely interact with strangers online; to critically appraise 
situations in which they find themselves; and to react appropriately 
when they find themselves in uncomfortable, compromising, or 
threatening situations.
    Students today will be global citizens for the rest of their lives. 
Students view the Internet in a much different way than adults.
    I would now like to address the ``Parents Internet Assumptions'' 
and the ``Youth Perceptions/Behavior regarding the Internet.'' There 
were more than 1400 parents who responded to the i-SAFE parent survey. 
The data compiled, from students, involved a participation of more than 
10,000 students, in grades 5-12 from 30 states. As noted, the ``Youths 
Perceptions/Behavior,'' regarding the Internet, varied greatly from 
that of their parents. An overwhelming 88 percent of the parents, who 
participated in the survey, felt they knew ``some or a lot about where 
their children go or what their children do on the Internet.'' Ninety-
two percent stated they have established rules for their child's 
Internet activity. But this perception is contradicted by the students 
themselves as 33 percent of the students do not share what they do or 
where they go on the Internet with their parents and 40 percent do not 
discuss Internet Safety with their parents. What is most important is 
that 34 percent said their parents had not established any rules for 
their Internet Activity.
    In real life Kids/Teens spend twice as much time with peers as with 
parents or other adults. However, through the guise of anonymity the 
Internet provides a medium, which allows a student to believe that the 
communication they are having online is a respective peer when in many 
instances it is an adult. Even though students may be aware of the 
dangers inherent in communicating with someone online, we continue to 
see they make decisions about engaging in a behavior as if it were a 
one-time thing.
    Risk taking is a natural part of kids/teens lives. They take risks 
in order to grow, trying new activities, generating new ideas, 
experimenting with new roles. However, they can also find themselves in 
trouble with their risk taking. Concern over such risk behaviors has 
led to the creation of many types of intervention. Some of these 
interventions have attempted to manipulate kids/teens beliefs, values 
and behaviors hoping to get them to act more cautiously. Other 
interventions have attempted to improve their stability to make 
sensible decisions, hoping to get them to make wise choices on their 
own. Having general decision-making skills enable kids/teens to protect 
themselves in many situations.
    In August 2002, the proposal for the guidelines and requirements 
for the kids.us domain contained the following statistics:

 More than 140 million Americans, half of our nation, are now online.
 90% of the children in America, between the ages of 5-17 use 
        computers
 65% of 10-13 year olds use the Internet
    I would like to give you some additional statistics relative to the 
activities of kids/teens online. This data was compiled as part of the 
i-SAFE program. i-SAFE conducts pre and post assessments with students 
participating in the i-SAFE Program. The data presented at this hearing 
was obtained as part of the ``pre assessments'' which were obtained 
before the students had participated in them i-SAFE Program in school. 
This data was gathered from a pool of 2500 students from around the 
nation:

 Current i-SAFE data shows that 80% of youth surveyed spend at least 1 
        hour per week on the Internet
 11% spend 8 or more hours (i-SAFE America 2004).
 30% of the students have a computer in the bedroom
 35% stated they feel freer on the Internet than in the real world to 
        do what they want
 35% felt it was easier to talk with people on the Internet than in 
        person.
 37% surveyed felt that they could trust those with whom they chat 
        with online
 10.5% surveyed had actually met a new person from the Internet ``face 
        to face''
 50% of the students have copied/downloaded music from the Internet
    After participation in the i-SAFE program, a post assessment was 
administered and the following statistics were gathered from a pool of 
2500 students from around the nation:

 90% stated they would be more careful where they go and what they do 
        online
 87% felt they could now differentiate between things that are or are 
        not dangerous
 87% felt better prepared to see and make use of the warning signs of 
        possible predators
 85% indicated they would be more careful in giving out personal 
        information to someone they met in a chat room
 93% said they would tell an adult if something happened to them or a 
        friend
 74% committed to not copy music from the Internet
    There are more than 13 million kids who use Instant Messaging which 
is nearly three out of four online teens (research by Pew reported in 
the JAMA, 2001).
    It was reported in 2000 that 1 in 4 kids participated in Real Time 
Chat. (FamilyPC Survey, 2000). This number has continued to increase. 
AOL released a study last year that indicated that the use of the chat 
and instant messaging, by kids/teens, has far surpassed the use of the 
telephone.
    Current i-SAFE data shows an increase in chatroom use: 41% of 8th 
graders surveyed have gone into chatrooms (i-SAFE America 2004).
    In a survey conducted by Symantec Corp in June 2003, 76 percent of 
kids surveyed (ages 7-18) have one or more e-mail accounts.
    According to i-SAFE data, \2/3\ of teachers surveyed in grades K-2 
report that at least 25% of their students have used e-mail.
    It is widely recognized and accepted that the main activity of 
kids/teens, as cyber citizens, is online two-way communication. That 
communication consists of chat, email and instant messaging. The 
nucleus of the Internet affords the opportunity of two-way 
communications and inherently the computer does not know whether the 
users communicating are that of a child or an adult. This means of 
communication allows users, regardless of age, gender or socioeconomic 
status to openly and freely exchange ideas and information. Our 
nation's youth has now coined a new term for--hanging out with my 
friends' and actively searching for new friends is done through a click 
of a mouse.
    I am showing you a chart, which contains statistical data that was 
obtained from i-SAFE pre and post assessments. From the data compiled 
the number of students that communicate in a chat room steadily 
increases from grades 3 to 8 where it peaks. As a student enters their 
high school years their need to communicate on-line decreases and is 
replaced by more social activity in the ``real world'' such as dating, 
sports and other extra-curricular activities. They become much more 
mobile (drivers license) and would rather ``hang'' with friends than 
``chat'' on the Internet.

                                (I-SAFE America Pre-Assessment Survevs, 2002-04)
----------------------------------------------------------------------------------------------------------------
                                                           % OF STUDENTS      % CHANGE (from    POPULATION (chat
                        I60GRADE                          USING CHAT ROOMS       grade 3)       users vs. total)
----------------------------------------------------------------------------------------------------------------
3......................................................               16%                N/A           346/2184
4......................................................               18%                 2%           679/3032
5......................................................               22%                 6%           239/1093
6......................................................               31%                15%           698/2254
7......................................................               40%                24%          1016/2508
8......................................................               41%                25%           546/1330
9......................................................               38%                22%            254/665
10.....................................................            37.70%                22%             75/199
11.....................................................            26.80%                11%             33/123
12.....................................................            14.90%                -1%              13/87
----------------------------------------------------------------------------------------------------------------

    Since May 2004, i-SAFE has educated more than 190,000 students 
throughout the US. Kids/teens rarely ``travel'' with their parents or a 
chaperone to many of the online areas. Buddy lists and instant 
messaging has replaced the traditional ``telephone and phone book.'' 
Without education and the appropriate tools to raise their awareness 
and to empower them to recognize the danger of being alone in a room 
full of strangers, our nations youth will continue to be at risk for 
exploitation.
    In July 2000, The Journal of the American Medical Association, in 
cooperation with a survey that was conducted by the University of New 
Hampshire's Crimes Against Children Research Center, published a ``Call 
to Action Report'' in which it reported that , older teens, troubled 
youth, frequent Internet users, chat room participants and those who 
communicate with strangers online are at the greatest risk. These 
demographics cover the majority of kids/teens traveling on the 
Information Highway. The study also confirmed that children often don't 
understand the risks associated with talking to strangers online (David 
Finkelhor, Director of the University of New Hampshire's Crimes Against 
Children Research Center).
    Let me begin by addressing specific examples of how dramatically 
the protective actions that have been employed historically have been 
impacted by this technologically-enabled, Internet-driven, paradigm 
shift.
    Education: Parents teach children to be wary of strangers on the 
street, in public places, and at the front door; but now, the strangers 
that these children meet--are not on the street--they are in 
cyberspace. And, to the detriment of the parents, many of their 
children are more ``Net'' savvy than either parent. This inequality of 
knowledge hinders parents in their abilities to address cyber safety 
issues and to properly instruct their children about the dangers of 
meeting strangers online.
    Historically, when parents taught their children to recognize and 
avoid dangerous situations, those situations were based on tangible, 
physical elements within their community. Now, danger lies in an 
amorphous cyber-world cloaked in the allusion of anonymity.
    Parental Supervision: Many of our children's activities have 
dramatically shifted from participatory activities (easily supervised 
by a parent and often enjoyable to watch) to solitary activities--
engaged through the computer keyboard or joystick--that do not lend 
themselves to easy supervision nor enjoyment by a non-participant (such 
as a parent). Children may spend hours playing solitary games online, 
or they may play in tandem with their cyber friends, or they may even 
play with total strangers they connect with online in an Internet 
gaming community.
    The Internet has broadened a child's ability to meet other people 
and acquire ``friends.'' Historically, children made friends at school, 
through family acquaintances, and from participating in community 
organizations. A child is no longer confined to the local community 
from which to socialize and gain friends; literally, cyberspace 
eliminates all geographical barriers and frees a child to roam the 
world in search of that one, special ``friend.'' Predators are also 
free to roam.
    The degree of difficulty for parents to monitor, or to simply meet, 
their child's friends has increased tremendously.
    Preventative Tactics: A commonly employed tactic for protecting our 
children is to provide an adult chaperone as our children explore 
outside of their community. Now, children explore the wonders of the 
world by transporting themselves through cyberspace and they travel 
this world alone, without the care and protection of a chaperone.
    Physical Barriers. Historically, parents routinely lock their doors 
at home each night to keep intruders out; schools monitor persons who 
enter the campus. There are innumerable, vulnerable children who are 
isolated, and lonely, and bored who constantly search the Internet for 
other children with whom they can make friends and chat. As these 
children search the web for friends so too the predator searches the 
web for prey. The predator will find the child, the child will find a 
``friend,'' and the outcome will be devastating.
    The effectiveness of currently employed physical barriers has been 
severely compromised. Predators lure and seduce their victims from 
within the privacy of the victim's own home and operate in a world that 
is no longer constrained by physical limitations or geographical 
barriers; they stalk their prey through cyberspace and the 
ramifications of this universal, paradigm shift are staggering. When 
taken as a whole they can be overwhelming, perhaps paralyzing; but--if 
ignored--the ramifications will be devastating to our youth. To 
approach any entity of this magnitude and to effect change it is 
advisable to search for a common element, theme; or component against 
which a focused solution may be enjoined.
    Up to this point in my testimony, I have provided insight into the 
incredible, paradigm shift that has occurred in our society and how 
this new paradigm directly affects the safety of our children. To 
illustrate the critical points, I mapped the ramifications of this 
paradigm shift to a common element in cyberspace: two-way communication 
(ie. chat room, instant messaging and email)
    The remainder of my testimony will focus on potential solutions 
that we as a society may embrace as our children extend into the 
farthest reach of cyberspace; as they interact virtually with persons 
throughout the world and as they evolve as ``Net'' citizens.
    As Judith F. Krug, Director of the American Library Association's 
Office for Intellectual Freedom, stated in her testimony before the 
COPPA Commission on August 3, 2000: ``The children of today will be Net 
citizens for the rest of their lives. They need to be taught the skills 
to cope in the virtual world just as they are taught skills to cope in 
the physical world. Children should be educated in appropriate 
increments and appropriate settings on how to avoid inappropriate 
Internet content, to report illegal or unsafe behavior and to engage in 
safe interaction online. Children who are not taught these skills are 
not only in danger as children in a virtual world, they also will grow 
into young adults, college students and an American workforce who are 
not capable of avoiding online fraud, Internet addictions and online 
stalking.''
    It is imperative that any domain that engages in the attraction of 
kids/teens recognize how children actually use the Internet. It is 
equally important to promote the online social activities within the 
domain to support the academic strategies that teach children to make 
safe and wise choices about using the Internet and to take control of 
their online experiences: where they go, what they see, to whom they 
talk, and what they do.
    Children need to be given the tools to assist them in the 
acquisition of skills that will allow them to evaluate independently 
the information they are acquiring and exchanging online. By improving 
children's ``information and media literacy,'' they will become safe 
and responsible cyber citizens thus vitiating the ``digital divide'' 
that exists today between Youths Perception/Behavior regarding the 
Internet and those of their Parents.
    Currently, both businesses and governmental agencies have begun to 
embrace digital certificate technology as an electronic means for 
identifying participants in transactions that occur online. They 
leverage this technology as a method for verifying and authenticating a 
person's electronic identity. The simplest way to view a digital 
certificate is as an electronic ID card. However, digital certificate 
technology is far from simple; but, given that the intent of this 
testimony is to identify and express how technology can be used, rather 
than to define the intricacies of the technology, I will refer to 
digital certificate technology in the simplest terms possible for the 
reader to understand.
    A certification authority issues digital certificates. A 
certification authority can issue various levels of digital 
certificates that are dependent upon the amount of authentication that 
is required to ensure that the person who is applying for the digital 
certificate is in fact the person that he or she claims to be. In other 
words, to obtain a digital certificate a person must present proof of 
identity and the ``level'' of the certificate obtained depends upon the 
amount of proof required.
Example:
Level 1 certificate--any photo ID required
Level 2 certificate--government issued photo ID required
Level 3 certificate--government issued photo ID required plus passport 
        or birth certificate
Level 4 certificate--all requirements of Level 3 plus a background 
        check
Level 5 certificate--DNA
    How could digital certificate technology increase the safety of 
children who frequent a particular chat room or deploy two-way 
communications on the World Wide Web?
    A public- or private-sector chat room provider could engage digital 
certificate technology as a means for permitting or denying access to 
any given chat room or online area that allows two way communication. 
Conceivably, a chat room provider could institute a policy that only 
children under the age of 13 are allowed to participate in a particular 
chat room. The intent of this policy is to provide a safer online 
environment by making their ``best effort'' at excluding adults and 
potential pedophiles from the chat room. To enforce the ``under the age 
of 13'' policy, the chat provider would require all participants to 
login using a Level 3 digital certificate. Through the use of the 
digital certificate and the chat provider's policy of restricting 
access, the children participating in this chat room have a lessened 
degree of risk than those children that participate in unrestricted 
chat rooms.
    This technology exists and i-SAFE, through the empowerment of 
partnership with Verisign, is now launching the first tool for our 
nation's youth, using digital certification. The unprecedented Digital 
Credential program works to reduce the vulnerability of America's 
students in all grades, K-12, with a unique digital credential that 
helps protect students as they engage in two way communications online.
    The Digital Credential is in the form of s small USB Token, which 
can be carried on a key chain and used at school, home; or on any 
computer with a USB port. The Digital Credential allows the kids and 
teens to enter an age centered chat room, or conduct two way 
communication, with confidence that everyone logged in will be who they 
say they are--chatters actual ages and genders can be confirmed from 
the digital credential token. The digital credential helps to safeguard 
the integrity of the child's online experience.
    The digital credential is distributed through the i-SAFE Safe 
School Program at the time of enrollment (with parental consent) 
helping confirm to parents that this program is offered through a 
trustworthy source.
    The schools database, which remains with the school, provides all 
the necessary information contained on the digital credential and 
validation is provided to assure that the token is valid at the time of 
usage. Neither i-SAFE or Verisign has access to this information. The 
identity of the student is never disclosed, just the students age and 
gender. The program allows for easy revocation of the credential when 
the student transfers, graduates or is not longer enrolled in the 
schools.
    I am showing you screen shots of how this new tool will be deployed 
and the interaction between the user and technology.
    We currently use digital certificates to execute online financial 
transactions. Businesses use this technology to protect their monetary 
assets. In September there will be a deployment of a pilot project, 
which will be launched within the i-SAFE program, that will allow 
parents to opt in to have their son/daughter be issued their first 
digital certificated which is being deployed nationwide as the i-Stik.
    Protecting our children is at the very heart of this hearing. Thank 
you, Chairman Upton and Ranking Member Markey, for inviting me to 
testify before the Subcommittee on Telecommunications and the Internet. 
In my testimony, today, I addressed the paradigm shift that has 
occurred within our society due the advancements in web technologies 
and the advent of two way communications that could be deployed within 
the kids.us domain to facilitate the establishment of an enjoyable 
environment for our nations youth. I have touched upon one 
technological approach that i-SAFE is launching to empower our nations 
youth with a ``tool'' to help protect our children from falling victim 
to online predators.
    In conclusion, there is no single solution for protecting our 
children. However, the value of empowering our children--through 
education--with the knowledge and critical-thinking skills that they 
need to be able to independently assess the every-day situations they 
will encounter, while online, cannot be overstressed. Children must be 
able to effectively protect themselves from cyber predators, to 
recognize potentially harmful or inappropriate actions, to actively 
disengage from negative behaviors or compromising situations, and to 
seek help when threatened. These lessons are learned. Education and 
empowerment are key.

    Mr. Upton. Well, I appreciate all of you coming this 
morning and sharing with us your testimony. At this point, 
members will be allowed to ask 5 minutes of questions each.
    You know, I have said this a lot of times. I visit a school 
every week, and a lot of those schools are elementary schools, 
and, often, I ask third and fourth graders or younger, ``How 
many of you use a computer?'' Everybody now raises their hand. 
I have been asking this for years. It did not used to be 
everybody, but now it really is.
    And then I also ask the question, ``How many of you have 
seen something inappropriate?'' and every hand also goes up, 
and that is one of the things that drove me and other members 
of this subcommittee to push for this legislation. We are all 
delighted that we have so many that have at least reserved a 
space, but a little disappointed that there are only 13 that 
are actually on board.
    I know Mr. Shimkus shared some frustration with getting the 
Shimkus.kids up online. We are working with a new Web preparer 
for my office. Just to give you a little challenge, I will bet 
you a Michigan quarter that we get the Cubs.kids online before 
the Cardinals.kids. There is a ChicagoCubs.org. I was on it 
last night. Yes, we will get one on. We will do that little 
challenge.
    But more has to be done. And, Mr. Gallagher, we very much 
appreciated your boss, Secretary Evans, sending the letters to 
39 companies and organizations. As I looked over the list and 
heard you speak, I think all of them do need to be on board.
    I am curious to know if you have had any response since 
last month. I know last month is only a week away, passed us, 
but have you had any response from any of those companies?
    Mr. Gallagher. We have not had any direct response, other 
than I would say that the Children's Television Workshop is a 
part of the PBS deployment, so we would count them in the 
appreciated category, and then there is at least action there. 
We have not heard back from anybody else definitively.
    Oh, excuse me. I am corrected. National Geographic 
responded favorably.
    Mr. Upton. Good. Now I have looked at a number of these 
sites that are online already, and, though there was nothing in 
the legislation to prohibit commercial development, I noticed 
that there was one trampoline advertiser and we have a 
trampolinist now because of that. I had a bet with my kids that 
if they would stop jumping on the bed, I would get them a 
trampoline, and it worked.
    Is there any thoughts on commercial activity like that?
    Mr. Gallagher. Clearly, the intent of the legislation is to 
make this as much as possible a commercial-free zone, so it is 
for the education and enrichment of children, but, if it 
complies with the terms of the statute and it is done in such a 
way as to not be offensive in that way, then it would certainly 
comport with what is allowed and what we would be required to 
allow and what NeuStar would be implementing.
    Mr. Upton. Mr. Tindal, do you have any comment on 
commercial activity by some of the providers?
    Mr. Tindal. Yes, I think the observation that we would make 
is that the predominant number of names and sites so far are 
noncommercial in nature. We think, on the evidence that we have 
so far, that the most likely folks to put live Web sites up are 
going to be nonprofit and educational. So we are not concerned 
that the space is going to become dominated by commercial 
activity by any means.
    Mr. Upton. Also, what do you make of the i-SAFE digital 
certificate proposal that was talked about by Ms. Schroeder?
    Mr. Tindal. We think it is an excellent program. We look 
forward to chatting with them about potential synergies. As I 
think we are all aware, the problem that we all face, there are 
a number of tools to solve it. Kids.us is one of them, and we 
think that safety tools in chat rooms is another important 
piece.
    As you know, in the kids.us, we prohibit links, and we 
prohibit chat interaction of that type, and, for folks who have 
very complicated, rich sites--for example, PBS--they typically 
have these sorts of things in their sites. So if we want to 
reduce the impediments to people who want to have sites, I 
think it is important that there be supplementary tools that 
allow things like safe links and safe chatting.
    So we think it is a great program.
    Mr. Upton. And the last question from me, Mr. Tindal, is, 
you know, we have 13 active .kids sites. We have more than 
1,700 names that are registered, and we heard a little bit 
about cybersquatting. Obviously, there is a frustration with a 
number of us that want to actually get our site there. Do you 
have any guess as to how many of those might be a cybersquatter 
just looking to sell their name to somebody else?
    Mr. Tindal. Yes. Of course, we cannot see into the minds of 
the people buying, but, as we look at the names and the 
identities of the folks who own them, we think that there is 
probably of the 1,700 about 300 names that we would ascribe to 
people who have bought the name purely to protect it or 
potentially to speculate in the generic, and so, as we look at 
our marketing program, for example, that we are launching in 
June, we are really focused on the other 1,400 who prima facie 
have an intent to put a site up.
    Mr. Upton. Appreciate your testimony.
    Mr. Cox?
    Mr. Cox. Thank you, Mr. Chairman.
    I want to address a topic of incentives or the lack of 
them. Right now, a lot of very useful content that is on the 
Internet at large is paid for in one way or another by 
commercial activity. Sometimes there is a payment in the form 
of simply being able to acquire information about people when 
they register, what-have-you, or even something as simple as e-
mail addresses.
    All of these things for a variety of good reasons are 
forbidden on the .kids.us domain. So perhaps we should not be 
surprised that there is not a gold rush mentality for people to 
want to get on to this domain.
    What can we do, to the extent that the normal commercial 
incentives are not there, to get people to spend their own 
money to build a counterpart to what they have already done on 
the main Internet?
    Let me just throw out as an idea to stimulate further 
suggestions from you, not necessarily to get you to opine 
definitively on this one idea, but just to give you an idea of 
the kind of incentive that I am thinking of.
    For for-profit companies who have already constructed a Web 
site, the task would be to adapt it to this domain, make 
modifications in it, make it appropriate, suitable, and make 
sure it lives within the law. Somebody has to do that, must be 
paid to do that. There is an expense. The government could make 
those expenses tax deductible.
    For nonprofit organizations, the expense is the same. They 
have to hire people to do exactly the same Web site 
construction. From a tax standpoint, nonprofit organizations, 
albeit they do not turn a profit, do have to hire lawyers and 
accountants and deal with their unrelated business income. 
Perhaps we could give them a 100-percent offset, a deduction, 
as it were, against their unrelated business income.
    Are there things like this that we should be thinking about 
so that the real world elements are taken into account so that 
people will be a little bit more willing to make the investment 
that is necessary to put their sites up?
    And I will address it to anyone on the panel who wants to 
leap in.
    Mr. Gallagher. I would be happy to just briefly respond 
with several thoughts along the lines of incentives. You know, 
first, in our estimation, you have to put the anchor tenants in 
the mall, and, with the anchor tenants, then we can fill in 
other places, and then the mall becomes an attractive place to 
go.
    If a mall is being constructed, it is not that interesting. 
There are no stores there yet. There is no parking. It is just 
a big dirt area. Well now, we are beginning to put those 
tenants in. We have the structure in place. We need to attract 
those anchor tenants.
    And the second thing that we need to be very focused on as 
an incentive is awareness, and it is awareness not just among 
parents, because I think that as parents learn about the 
special features of this space, they will clearly be attracted 
to it with their children, and they can begin to take steps.
    They are not going to really be aware until you start 
seeing the anchor tenants more visibly participating, which is 
the thrust of your question. It is also awareness to the 
respective anchor tenants that they do not need to recreate 
their entire Web site and put it in the .kids space.
    It is a difficult proposition to take a significant 
commercial Web site and then to, all right, now translate this 
into a .kids-adequate environment. Instead, they should just 
strip off the pieces that make the most sense--the background 
information, the parts of their business that do have appeal to 
children on the content level, not so much on the commerce 
level.
    Mr. Upton. And what might be some incentives to encourage 
that?
    Mr. Gallagher. The one that you mentioned about the Tax 
Code. You know, I am particularly limited in what I can mention 
in that regard because of the division of labor within the 
administration, and we tend to look to OMB and the White House 
to give us that guidance. I am not so sure it is financial. I 
think it is much more the echo chamber of leadership.
    The simple fact is reminding this committee with its broad 
jurisdiction, the administration with its reach into the 
community, in partnership with the folks that we already have 
with us of this opportunity and then getting past the chicken-
and-egg stage that we are in. That is probably a much more 
constructive use of our effort than any specific potential 
legislative action.
    Mr. Cox. Mr. Tindal?
    Mr. Tindal. Yes, I would like to endorse all of Michael's 
comments there.
    I would like to make what we think are a couple of very 
important observations about the adoption rate of live sites. 
As you know, we have 1,700 names, which is quite a good number, 
and we have a relatively small number of live sites.
    The first point I would like to make is that that sort of 
slow adoption rate is a very common phenomena in the Internet 
Web hosting industry. As we look at our .us and our .biz 
business lines, for example, typically from when a customer 
buys a domain name to when they have a live site varies between 
6 and 18 months, and that is in spaces where there are not the 
special rules and requirements of .kids.
    Mr. Cox. But, Mr. Tindal, how many live sites are there 
right now?
    Mr. Tindal. There are 13.
    Mr. Cox. Right. I mean, so this is just pitiful. Nobody is 
going to use this.
    Mr. Tindal. Sure. And we are not happy by any means with 
that, but the point I am making is----
    Mr. Cox. And then saying, you know, 18 months from now, we 
should check back, I mean, we need to hurry this along a little 
bit.
    Mr. Tindal. Of course, we understand completely and agree 
with that. I am just making the point that I think that there 
are probably many, many domain holders who are currently 
implementing their plans, designing and constructing their 
sites with an intention to go live.
    We have certainly seen that phenomena in other domain 
spaces, so that would be the first observation.
    Mr. Cox. But we have also seen that the ratio of live sites 
to registered sites is something like 1:4 or 1:3 on the main 
Internet. So I have 1,700. You are still looking at a pretty 
small fraction that are going to go live, even if they are all 
work in progress.
    So, I mean, I think we need to be talking about a lot more 
than what has already signed up, and, when you look at who has 
signed up, you know, in some cases, there is some filler in 
there and squatters and, you know, other people.
    Mr. Tindal. That is correct.
    Mr. Cox. My time has expired, and so, therefore, I am going 
to leave it to the panelists to finish up with the question, 
but I just want to remind you the question is about incentives 
because I think we need some. You can just say we do not, and 
then that would be answer. Or if we do need incentives, what do 
you think will work?
    Mr. Tindal. Yes. We endorse the notion that our marketing 
program is going to drive additional domain holders and it is 
going to drive more folks to put up their Web sites. We also 
recognize that, with the special rules and requirements for 
kids that are quite unique on the Internet, that is what makes 
the kids.us a safe place. We understand that that puts special 
challenges on the domain holders and adds to the time line 
before a site is raised.
    So we do not want to diminish the notion that we need to 
work more aggressively, that is the focus of our marketing 
program, but I do want to give some comfort that the sort of 
adoption rate that we have at the moment is not necessarily 
indicative of what we will be seeing in the future.
    Mr. Upton. Okay.
    Mr. Shimkus?
    Mr. Shimkus. Thank you, Mr. Chairman.
    I cannot speak for my colleague, Mr. Cox, but I think he is 
pleading for suggestions on how we can be helpful, and I think 
that is all he is asking. So I would encourage you all to look 
at and talk to folks who have tried to get on and struggled. 
Why have they decided to go? Some of it is through prodding. 
Some of it is they are going to see a return somewhere in the 
future.
    You know, I am a conservative Republican who supports 
business, understanding risk and reward, understanding the 
expense and capital. It is a challenge. But I look at Mr. Cox's 
question as there is more that we can do legislatively to be 
helpful, and we ought to move forward and do that.
    So, with that in mind, I think you will find a very 
receptive legislative body to do what we can, and I think 
Chairman Upton would agree and all my other colleagues.
    Mr. Gallagher, it is good to have you on board. We 
encourage the Senate to move to make you ``official.'' Don't 
hold your breath, but I am not sure if you would be viewed as 
controversial, but everything is controversial over there these 
days.
    And please send thanks to Secretary Evans for his support. 
The letters that he sent out, I think, again, is very, very 
helpful, and we look forward to the rollout this summer and all 
that hopefully can be obtained in that process.
    My initial question was going to be very, very similar to 
Chris Cox's line. So I think my comments were: Come back to us 
and tell us how we can help incentivize.
    I was interested on this commercialism bent. As, you know, 
one of the coauthors, I have been supportive. To think that 
people who are on the site, whether it be PBS or whether it be 
Disney, do not realize that, in essence, by being on this site, 
they are developing clients or constituents or a consumer of a 
product that they are producing, whether it is a for-profit or 
a not-for-profit, is kind of silly to me.
    I mean, we want kids to be focused on PBS and look at all 
that great stuff. If they are starting to click away at age 4 
and age 5 on a very, very safe site, they may be then more apt 
to do the more lucrative site in the future. So I do not have a 
problem with trampoline.kids.us or others, as long as it meets 
within the parameters of the legislation.
    So I am not hung up on that and I think we want to 
encourage it because it does start addressing this commercial 
debate, which is a return-on-investment debate, that we need to 
have an incentive for people to get on the site.
    And the other point in the testimony, Ms. Schroeder, was 
when you were going through your presentation. Congressman Cox 
and I were talking through it because we were listening to the 
testimony and we were bouncing ideas against each other and 
stuff. I am sure you have your presentation broken more minute 
by age groups.
    Now remember .kids.us is 13 and under. Some of your age 
groups went from 8 to 18 or 9 to 18. I used to teach high 
school. Well, how do we break up our schools? You know, the 
school my kids go to is kindergarten through eighth grade, but 
most public school systems have grade school, middle school and 
then high school, and it is because kids are changing, you 
know, in those environments.
    The role via the middle school teacher is probably the most 
challenging avenue. It is just a wacky place, and I applaud 
those who go in there. I did my student teaching at a middle 
school.
    So I think what we need to focus on for .kids.us is that it 
really should be viewed as the safest of the safe places for 
the kids to first get their first experience. I am concerned, 
as was mentioned in the PBS testimony, what happens if you 
click on a scary site?
    Well, we do not want them to click on a scary site. That is 
the whole idea of kids.us. We want, as safe as we can make it, 
a child-safe site on the Internet. So, for my grade-school 
kids, I do not want them to click on a scary site.
    Now my 11-year-old is probably at the point where I can 
talk to him and try to train him and work with him. My 9-year-
old, the last thing I want him to do is click on a scary site. 
My 11-year-old, I think, can handle it, and I can talk him 
through it, and I can talk to him about how to click out and 
train him. So I think that is where we need this discussion to 
continue.
    Mr. Chairman, I have gone way over my time, but, if I may, 
since I threw a whole bunch of issues out, allow any of the 
panelists in as brief amount of time as possible to respond, I 
think, that would only be fair, and so, with your permission, 
would anybody like to respond to any of those comments? Ms. 
Johanson?
    Ms. Johanson. Thank you for your comments.
    First, I would like to respond to the issue of 
commercialism. You are absolutely right, and, even for an 
organization like PBS, we are not for-profit, but I like to say 
that does not mean not for revenue. There is a business model 
that makes us and allows us to do what we need to do.
    The issue of concern that we have raised, however, as we 
went back and read over the last few days your intent for 
.kids.us and your description of the section in the library for 
children, that is very powerful, and we agree that is the right 
analogy and aspiration of what this should be. When you click 
on certain sites, that almost, if you continue the analogy, 
would feel like you were going to the library and pulling a toy 
catalog off of the shelf of the library.
    Your intent, as I read the language, was for educational 
content, and, yes, you are right, in every space, there is 
going to be a business model behind that. I would urge that as 
the criteria is refined for the content providers that there is 
some content there.
    I want to also respond to Congressman Cox's question of 
incentives. I think that there is an element of an incentive 
for content providers of wanting to understand what kind of 
company will be in and what the editorial goals are of the 
space because, as users come into click to the space, as they 
click on certain sites, there is an expectation you are 
setting, and, if you click and you find a couple of sites that 
do not really necessarily, you know, deliver on the promise, 
you are not going to see the return traffic.
    At a minimum, for PBS right now, having users and visitors 
to the site--and I am sure that is the same for the other 
content providers--is very important. So I would urge with 
incentives that there be a little bit more cultivation of the 
editorial sites because, right now, if you click on every 
genre, the same sites come up, and, just as there is a 
librarian in the children's section of the library helping 
users understand the content, that is important for the 
providers and for the users.
    I also would like to say that I do believe financial 
incentives of any form, from my conversations with other 
children's content providers, I think, might be helpful. It is 
a real struggle, as every organization, commercial or 
noncommercial, are looking at resource issues, constraints. I 
do think that that is an interesting idea to pursue.
    I would also finally recommend that the administration 
process to move your sites to .kids.us, I think, can be 
streamlined. We had our site ready to launch in February, and 
it just recently launched on the .kids.us, and I think that 
moving that process along now that the organization is set up, 
you will hopefully see more content soon.
    Thank you.
    Mr. Tindal. Yes, I would like to make just a brief 
observation on the incentives. In the marketing program that we 
are implementing, there is a component that does have financial 
rebating incentives to end users and to the registrar channels, 
so I would like to get that on the record.
    But I really would like to endorse the comments that 
Michael made a few minutes ago on the fundamental marketing 
strategy here. I like the analogy he gave of the mall. If you 
do get those anchor tenants in and other folks see that there 
are good, high-quality sites there, that is the most powerful 
thing to bring in additional people, and that is the focus of 
our program.
    Ms. Schroeder. I would like to comment on what you had 
shared earlier. You are absolutely correct in terms of the kids 
at specific ages seeing various things and also their 
activities, and that is the reason why we start at grade 
kindergarten and work up to 12th grade.
    However, what we have found in the schools is that the kids 
that are at the most risk are fifth, sixth, and seventh. Those 
are the ones that are really out there. They kind of take off 
on their own in terms of going to look for things, whether it 
be research and/or going out to meet with people.
    What we have really focused on is, because of that aspect 
of the way that the Internet is and the medium that it is, 
letting kids actually go to cyberspace and collectively do 
independently what they want to do. We felt that the best way 
to make an impact upon those kids was to enhance their critical 
thinking skills, so when they do see something, they do have 
the knowledge on how to handle that appropriately.
    We continue to know that, if you are going to have anyplace 
collectively where you are wanting to garner the attraction of 
kids, it has to be attractive to them, and that is something 
consistently that the kids in schools around the Nation have 
told us.
    So, for this particular purpose, if there is a 
consideration in terms of even though the tenants do come and 
they build, will the kids come, will they spend the time there 
to do their activities?
    Mr. Shimkus. Well, I would hope that i-SAFE would set up an 
i-SAFE.kids.us to help educate the public to all the great 
programs that you have.
    Ms. Schroeder. Thank you very much.
    Mr. Shimkus. Mr. Gallagher?
    Mr. Gallagher. Very briefly, first, I wanted to express 
appreciation for the availability of leadership from this 
committee, and we will follow up on that, and we will use it.
    The second thing that I would want to pass along is that 
with respect to my confirmation, we could probably work with 
Senator Lott to develop a Web site, billfish.kids.us, and maybe 
that would help build awareness.
    I also appreciate the gratitude to Secretary Evans. I will 
personally pass that along to him. He greatly values the 
opinions, insights, and the challenges that are faced in this 
body and by this committee.
    Also, just as you mentioned, Mr. Shimkus, you know, 
``commerce'' is not a bad word around my building, and, 
certainly, there is an equation that is tried and true in 
America that if you build the awareness of children and young 
consumers about just the general goodness of your product that 
that does yield benefit down the line, and we will look forward 
to doing that.
    And finally, two other points I would raise is that 
foundations may be a wonderful target for us to leverage their 
resources to drive the awareness and attract the tenants that 
we have talked about.
    And then the final thought--and it has been, I think, very 
well encapsulated by PBS, with respect to today--we have to 
remember our audience. You know, our audiences are tough. They 
are tough customers. Kids are sophisticated. They go to where 
things are interesting, where things are captivating, and, if 
we do not keep them there or it is not right the first time, 
they will not come back.
    Mr. Shimkus. Yes, but I would say that that is where the 
age group issue is. I mean, there is a break at fifth, sixth, 
and seventh grade versus Grade 4 and younger. My 9-year-old, he 
is not, I mean, so I think that is where the benefits of the 
kids.us site is also.
    Thank you, Mr. Chairman.
    Mr. Upton. I yield to another dad on the subcommittee, Mr. 
Pickering.
    Mr. Pickering. Thank you, Mr. Chairman, and I appreciate 
this hearing. I appreciate Mr. Shimkus and his leadership on 
this issue.
    As I listen to the comments of the witnesses and the panel 
and the members, it seems like we have, you know, two basic 
issues, one, how do you incent greater participation on 
kids.com, and how do you inform people, parents and teachers 
and schools, that this exists.
    I would assume that if we did market research or polled 
this site or this domain, capability is not known to any great 
extent, and what I would like to ask is a couple ways how can 
we both incent and inform. What I will do is I will ask all my 
questions at one time, and then I will step back and let you 
all go from there.
    To Mr. Gallagher, are there grants with NTIA that you can 
give to various institutions? And is there an interagency 
process with the Department of Education that you could enter 
into where you are informing school districts across the 
country, as well as content-based or potential, using your 
words, mall tenants, of how they can cooperate together? Do you 
have grant capability to try to develop that?
    The other thing that came to my mind: As you know, we use 
the e-rate to hook up schools and libraries. Is there a way 
that we could use the e-rate as a funding mechanism to create 
the educational content? Not only do we want the linkages, but 
do we want an electronic library that would be appropriate for 
our children so that you have curriculum and you have content 
working with PBS and Department of Education and others, that 
not only do you have the good linkages, but we give our schools 
that are across the country content that they could really use 
and that children would want to have.
    So is the e-rate a potential funding source to incent and 
create this capacity?
    As far as on the informational side, to PBS and Ms. 
Johanson, do you all run Public Service Announcements about 
your site?
    And, also, Mr. Chairman, is this something that we could 
get NAB to run, Public Service Announcements that would 
highlight and advertise this site and this domain as something 
that parents and children would want to use as a way to 
hopefully broaden the knowledge and the understanding of this 
capacity?
    And the last question would be to Ms. Schroeder. How do you 
protect and monitor? And this is to anybody. What kind of 
technology-filtering software do you use; how effective is it, 
as you create this .kids domain to make sure that it is 
reliably safe and reliably appropriate; and how effective and 
efficient have you been or we been in keeping the right 
material in and the wrong material out?
    With those questions, I will turn back and give you all the 
time you need.
    Ms. Schroeder. Well, I will go ahead and address the 
question that you had asked me. We really feel that education 
is the best tool for the kids. The reason being is that 
filtering does not filter out where do you live, what are you 
wearing, you know, what is your address.
    Because of the fact that these kids are engaging online--
and I am talking about two-way communication--with individuals, 
it is really key that they know how to have appropriate 
communications and also be able to be equipped and educated. If 
they are in the process of being groomed, they know that, and 
they know what to do about it and also know how to report it.
    For those smaller kids, as a foundation, we do not really 
get into the filtering aspect of it nor do we support one 
filtering company after another. Personally, as a parent, I 
think that for smaller kids, absolutely. You know, we look at 
this as kind of training wheels in terms of sequestering them 
as to what they can do.
    It is the same thing as parents when we help our kids going 
next door, we walk them next door when they are little. 
Afterwards, they start going around the neighborhood alone.
    So we have really found out that, from the aspect in terms 
of from the kids and the assessments we have been getting and 
the feedback from them, education has been paramount. They 
really have been able to become critical decisionmakers and 
make those independent decisions. If they get into a site and 
it looks very inappropriate, they on their own will back out, 
and I am talking of kids in, you know, third, fourth, fifth, 
sixth, seventh grade.
    Mr. Pickering. But, as far as the .kids domain, it is set 
up to have a constant monitoring of what goes in. Has that been 
effective, reliably so?
    Ms. Schroeder. I really could not answer to that question.
    Mr. Pickering. Who performs that responsibility?
    Mr. Tindal. Yes, we perform that function, and we perform 
it frequently and periodically. Before a Web site is enabled, 
the content is reviewed, before it is live to the public, to 
see that it is conforming with the policy. After it has gone 
live, we perform very frequent both automated software and 
manual reviews of the content.
    We are pleased to say that, at this stage, there is very 
little evidence of abuse, particularly intentional. There are a 
couple of sites that we have pulled down. When we detect a 
violation of the content, from a technology perspective, we 
disable the name servers so that the Internet can no longer 
find those Web sites.
    There has been very little abuse so far. That which has 
occurred has predominantly been in one of the content policies, 
which is that it does not permit links outside the kids.us. 
These links have not necessarily been to bad sites, but, 
nevertheless, it is a zero-tolerance policy on links.
    So, so far, the operational machinery for ensuring that the 
content is of appropriate quality is working very effectively.
    Mr. Gallagher. Just responding, Mr. Pickering, to your 
questions, first, about grants, NTIA administers two grant 
programs, the Technology Opportunity Program and the PTFP, or 
Public Television Funding Program, that we have at NTIA.
    The only one that would be appropriate for action in this 
particular area would be the TOP Program, and it is targeted at 
nonprofit corporations. It is a requirement of the statute that 
it be for nonprofits and similar institutions.
    The application period for grants for this year, which is 
certainly the relevant time period for our discussion today, 
has passed. That closed recently, and that is, you know, done 
pursuant to rule which is done pursuant to the statute. 
However, for next year, we do have some flexibility in defining 
the criteria for what types of grants are invited and we could 
certainly change those requirements.
    But I, you know, do have to caution the committee that this 
is a grant program that the President has said should be 
eliminated, and, in each of the budgets that have come from the 
White House and been delivered to the Hill, the number has been 
zero each year, and, of course, that discussion goes back and 
forth with Congress, and it ends up being funded, and then I, 
in my position, will completely and faithfully fulfill the 
requirements of the law and do what is necessary, but I just 
wanted to respond directly to that grant question.
    Mr. Pickering. I would encourage you and Mr. Shimkus and 
Mr. Upton, as you do your grants for next year, try to target 
this particular promotion, and, if you could, integrate it with 
education and see if there is an interagency process that would 
complement and pull in shareholders like PBS and others so that 
it can be not only an effective way to get the content and the 
investment, but also get the information and the education out.
    Mr. Gallagher. And with respect to working with the 
Department of Education, very willing to do that. And then the 
direct response to the request that you just made, of course, 
we will work within the scope of our statutory authority to 
accomplish that and have it as a specific item that would be 
attractive to the community so we can help put resources where 
they are necessary.
    You also asked a question about the e-rate. You know, as I 
sit here, I do not have the statute in front of me, but I do 
realize we are wading into significantly deep waters when we 
talk about universal service, which is where e-rate is funded 
today by the FCC.
    But my understanding is that that is very limited by 
statute, what it provides for, it is also limited by FCC 
regulation, what it is targeted to provide for, and I think 
that the content is a reach too far at this point according to 
existing statute and rules.
    I would just note, it might be a blinding glimpse of the 
obvious, but, you know, this is a $6-billion-a-year program. 
The burden is currently carried by an industry that is severely 
stressed and that also has been identified as an area for 
legislation in 2005 by the Senate Commerce Committee.
    Mr. Upton. Thank you.
    I yield yet to another dad, the father of Jonathan, Mr. 
Bass, from New Hampshire.
    Mr. Bass. This is an interesting day. I just came down from 
upstairs where Congressman Stearns is having a hearing on 
Internet pornography. We certainly are covering the bases here 
today.
    Mr. Chairman, I do not really have any questions. However, 
just off the top of my head, I am wondering whether maybe we 
could tie these two hearings together a little bit. The subject 
of the hearing upstairs is peer-to-peer and child pornography. 
Is there any relationship between the .kids issue and the issue 
of peer-to-peer communication? IM, Instant Messenger, is a 
peer-to-peer environment. Can you enlighten me on any issue 
involving that mechanism for communication?
    Mr. Gallagher. The one thing that I would offer just in a 
general response is that this hearing is the flip side of that 
one. This hearing is meant to focus on the safe environment 
that is constructed from the beginning, as Mr. Shimkus 
mentioned in his opening statement, to avoid all these problems 
that we are seeing upstairs, so that you are not allowed to do 
those types of communications in this space, and it is meant to 
be an attractive environment for the specific activities of 
education and entertainment of children. So that is the focus.
    What drives, certainly, our concern, as I mentioned in my 
opening statement, is that, in the last 6 years, as you 
probably heard upstairs, there has been a 2,000 percent 
increase in the number of cases opened by the FBI for precisely 
those types of absolutely despicable activity so that is the 
motivation behind creating this environment.
    Mr. Shimkus. If the gentleman would yield, let me just also 
ask about the other pending issue that we are hearing in the 
Consumer Protection Committee, a debate on spyware. Now, you 
know, spyware is also interactive and actually follows you and 
sometimes you know. Well, you should know. A lot of times, you 
do not know.
    Say, you are a kid on the kids.us site. Are you still 
subject to spyware applications on your computer or is the 
technology such that we can say, here, you know, no peer-to-
peer, which is what it was intended to do, and no spyware, no 
computer programs that you do not want to be loaded and 
watching your computer?
    Mr. Tindal?
    Mr. Tindal. Yes. You know, I will consult with some of my 
technology colleagues. I give that caveat. But, to my 
knowledge, there ought not to be within the kids.us Web sites 
any concerns of that nature. Typically, the sort of programs 
that lurk and attach themselves to someone's browser come from 
the Web site, and so we certainly have not seen any evidence of 
that. From a technology perspective, to my knowledge, that 
ought not to be a problem within the kids.us space, but I will 
get consult.
    Mr. Shimkus. So not only safe for the individual user, but 
also, in essence, safe for the computer and the programs 
because, in spyware, we are seeing so much unaccounted-for 
programs clogging up your computer that it is running slower 
and people think it is broken, and it is just all these 
programs. They have no idea what is on there.
    Mr. Tindal. Correct.
    Mr. Shimkus. Again, it just makes more proud of what we 
did, Mr. Chairman, and I thank you. We are going to keep 
working on making it a success.
    I yield back to my colleague.
    Mr. Bass. I yield back to the Chairman.
    Mr. Upton. Mr. Pickering, do you have additional questions?
    Well, ladies and gentlemen, we appreciate your time well 
spent with us today. That is for sure. We also appreciate your 
hard and diligent work over the last number of months to really 
see .kids become a reality. We knew we could not just force it 
to happen. It took the cooperation of a lot of folks, both in 
the public and private sector.
    As parents, every one of us on this panel--and I speak for 
parents across the country--are elated that this is beginning 
to happen, and we look forward to having it flourish.
    We may well, indeed, have a hearing at some point next year 
as to where we are headed. We want to see it continue to 
expand. It was great, as I looked myself at a number of the 
.kids sites in preparation for this hearing, and I know that 
kids across the country will be well pleased with the content 
that is on there. As parents, we will be well pleased that, in 
fact, they are not getting to the stuff that they are talking 
about upstairs in the other subcommittee.
    Mr. Bass?
    Mr. Bass. I hate to wreck your fabulous closing statement. 
Could I just ask one more question very briefly?
    Mr. Upton. You can.
    Mr. Bass. If my daughter turns on the computer, how does 
she take advantage of this program? Just describe to me how she 
gets on and what is available, but very briefly. What does she 
do? What does she type in?
    Mr. Tindal. She types in www.kids.us, if she does not know 
the particular destination that she wants to go to--and that is 
a site that we manage--she will see a directory categorized.
    Mr. Bass. Suppose she went to a search engine and typed 
in----
    Mr. Tindal. That is going to be a different story. If she 
went to a search engine and she typed in kids.us, for example, 
possibly she might be brought to----
    Mr. Bass. And then once she gets that, then what happens?
    Mr. Tindal. When she gets to our site and the directory?
    Mr. Bass. Yes.
    Mr. Tindal. She would choose a category.
    Mr. Bass. So there is a Web site kids.us?
    Mr. Tindal. That is it.
    Mr. Bass. And then there are a whole bunch of----
    Mr. Tindal. There are about, I think, 14 categories--
entertainment, music, et cetera--and then she would choose, you 
know, which one to go to.
    The issue, of course, we have at the moment is that there 
are not a lot of sites there. There is some very rich content 
there.
    Mr. Bass. Can you download these games?
    Mr. Tindal. You play them from the----
    Mr. Bass. Are there advertisers?
    Mr. Tindal. With some of them, there are, yes.
    Mr. Bass. Okay. Very well.
    And just to follow up, there are software applications in 
which someone could then limit the child, if they want to go on 
the Internet, to sign up with a password to solely go to a 
kids.us site.
    Mr. Gallagher. The technology is certainly available, and 
you can construct your browser as a parent, as the 
administrator of your system at home. You are your own systems 
administrator in your own home, many people do not know that, 
but you can then define the arena that they are allowed to 
participate in.
    Mr. Bass. Great. Thanks.
    Sorry, Mr. Chairman. I am just very emotionally engaged in 
this.
    Mr. Upton. That is okay, Mr. Bass.
    Mr. Bass. Mr. Chairman, now you can give your closing 
statement again. We would love to hear it twice. It was so 
eloquent.
    Mr. Upton. I was going to mention that there is an add-on. 
You missed this because you were upstairs with the other 
subcommittee. For a trampoline, I was going to suggest that 
maybe they would have a hula hoop for you.
    So, with that, we will adjourn the hearing. We, again, 
appreciate your time. It is well spent. Thank you.
    [Whereupon, at 11:08 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
